<html>
<title> - PROPOSED COMBINATION OF COMCAST AND NBC-UNIVERSAL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                    PROPOSED COMBINATION OF COMCAST 
                           AND NBC-UNIVERSAL

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2010

                               __________

                           Serial No. 111-138

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
56-744                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel


                            C O N T E N T S

                              ----------                              

                              JUNE 7, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1

The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Member, Committee on the Judiciary.....     2

The Honorable Maxine Waters, a Representative in Congress from 
  the State of California, and Member, Committee on the Judiciary     3

The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Member, Committee on the Judiciary.....     5

The Honorable Judy Chu, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....     6

                               WITNESSES

Ms. Paula Madison, Executive Vice President, Diversity, NBC 
  Universal
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10

Mr. Samuel Kang, Managing Attorney, The Greenlining Institute
  Oral Testimony.................................................    55
  Prepared Statement.............................................    58

Mr. Alfred C. Liggins, III, President and Chief Executive 
  Officer, Radio One
  Oral Testimony.................................................    95
  Prepared Statement.............................................    97

Mr. Stanley E. Washington, Chairman and CEO, National Coalition 
  of African American Owned Media
  Oral Testimony.................................................   101
  Prepared Statement.............................................   104

Mr. Jim Weitkamp, Vice President, Communications Workers of 
  America
  Oral Testimony.................................................   112

Mr. Will Griffin, President and COO, Hip Hop On Demand
  Oral Testimony.................................................   114
  Prepared Statement.............................................   119

Mr. Allen S. Hammond, Phil and Bobbie Sanfilippo Professor of 
  Law, Santa Clara University School of Law
  Oral Testimony.................................................   124
  Prepared Statement.............................................   127

Mr. Alex Nogales, President and CEO, National Hispanic Media 
  Coalition
  Oral Testimony.................................................   135
  Prepared Statement.............................................   137

Ms. Kathryn F. Galan, Executive Director, National Association of 
  Latino Independent Producers
  Oral Testimony.................................................   145

Mr. Darnell M. Hunt, Professor of Sociology, University of 
  California, Los Angeles, CA
  Oral Testimony.................................................   147
  Prepared Statement.............................................   149

Mr. Frank Washington, Chairman and CEO, Tower of Babel LLC
  Oral Testimony.................................................   158
  Prepared Statement.............................................   160

Ms. Suzanne de Passe, Co-Chair, de Passe Jones Entertainment
  Oral Testimony.................................................   168
  Prepared Statement.............................................   171



                    PROPOSED COMBINATION OF COMCAST 
                           AND NBC-UNIVERSAL

                              ----------                              


                          MONDAY, JUNE 7, 2010

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 9 a.m., in the 
California Science Center, The Donald P. Loker Conference 
Center, 700 Exposition Park Drive, Los Angeles, CA 90037, the 
Honorable John Conyers, Jr. (Chairman of the Committee) 
presiding.
    Present: Representatives Conyers, Waters, Cohen, Chu and 
Gohmert.
    Staff Present: (Majority) Elisabeth Stein, Counsel; Travis 
Chapman, Counsel; Benjamin Staub, Professional Staff Member; 
and Stewart Jeffries, Minority Counsel.
    Mr. Conyers. Good morning. The Judiciary Committee will 
come to order. We welcome all of our witnesses and guests that 
are present. In many ways, this is a historic hearing, because 
the nature of this merger is unusual, in many respects, and I 
wanted to allow our distinguished Members of the Committee to 
get in a few comments before we start our discussion about this 
historic merger.
    There are several levels of inquiry. The first is the huge 
amount of combinations, take-overs, mergers, that have become a 
pattern over the last 30 years. There have been very little 
follow-up, the secondary response keeps going down, and there 
is an institutional crisis. And it didn't just start with this 
proposal that is before us. And it didn't just start, frankly, 
in the last Administration before this one.
    And so we are here to examine that phenomenon.
    Now the nature and the complexity of the proposal between 
NBC and Comcast now is so great, that FCC is hiring outside 
counsel to help them untangle this situation. And so I start 
off, my colleagues, and I am so happy that Judy Chu and Judge 
Gohmert, our senior Member of the Committee, Maxine Waters, 
Steven Cohen, are all here with us today.
    I start off with putting in the record a law review article 
on recent trends in U.S. merger enforcement by Debra 
Forenstein. The first sentence might give you a clue of the 
direction we are going in.
    ``The Federal Government has nearly dropped out of the 
antitrust enforcement business, leaving companies to mate as 
they wish.'' And it goes on for some 20-some odd pages.
    The other comment that I would like to put before you is 
the idea that this merger is ``in the bag.''
    Chairmen and Members of the Committee, you know that 
everybody is for this merger. Just read the press releases and 
understand the great amount of support that is generated, and 
my friend, Magic Johnson--I am going to put his letter in the 
record--we were together with Mrs. Obama in Detroit, only the 
week before last. Many of my friends, in both sides of the 
corporate picture, are involved.
    So naturally, Judiciary has to hold some hearings. But for 
goodness sake, let's get this over with and get on down to the 
business of forming a corporate instrument of such magnitude, 
that I'm not sure if anybody accurately knows where it is 
going.
    And so it is with that appropriate skepticism, that I call 
this hearing to order, and I want to thank all of the 
witnesses, some one, two, three, four, five, six, seven, eight, 
nine, ten, eleven of you, for the preparation that you have 
done to be here.
    And we want to have a discussion. This is not a formal 
situation where we toss off statements prepared by you or 
someone else, and we have this exchange, and then we all fly 
back to our destinations.
    I think this is a historic moment in the economic life of 
this country, and to me--and I have talked with Waters and 
Cohen and Gohmert and Chu--there will be other hearings 
necessary, that this is not going to be solved in one giant 
hearing in Los Angeles and we go from there.
    Judge Louie Gohmert is a friend of the Committee, an 
expert, and one well-respected on both sides of the aisle, and 
I recognize him now.
    Mr. Gohmert. Thank you, Chairman, and I do appreciate the 
hearing. It gives us the opportunity to examine, for a second 
time, the proposed combination to create one of the world's 
largest entertainment companies.
    Mr. Chairman, you mentioned skepticism. The old saying I 
heard when I got to Washington, was that no matter how cynical 
you get, it is never enough to catch up.
    So anyway, I am finding there is some truth in that. But 
the combined company would own significant assets in video 
distribution, video production, movie production, and the 
emerging world of Internet video programming.
    And of course the combined company will control one of the 
largest news-gathering organizations in the world, NBC News. An 
important question that the Department of Justice must answer 
in reviewing mergers is whether the proposed transaction will 
lessen competition, raise prices and harm consumers. However, 
the merger is not completely typical of the mergers that we 
normally examine in this Committee, and that the Department of 
Justice usually reviews.
    Normally, we look at mergers between head-to-head 
competitors, such as Delta, Northwest, or XM and Sirius.
    Both Comcast and NBC Universal own some video production 
assets; however, a more compelling and harder question is 
whether a vertically-integrated company that has a significant 
hand in video production and distribution can use its leverage 
in one area to raise prices in another.
    In other words, can the combined company use Comcast's 
significant presence in cable distribution to limit its rivals 
access to NBC's programming.
    Comcast argues that the FCC's carriage rules prevent it 
from discriminating against its rivals in such a way.
    However, some have concerns that the FCC's rules may not be 
as robust in that regard as Comcast suggests.
    It would seem that if the Department of Justice determines 
that competition remains robust for both video distribution and 
production after the merger, then the Department might approve 
the deal. Of course the Department is not the only entity that 
must review the proposed purchase. The FCC will review it to 
ensure that the merger is in the public interest. That catch-
all phrase, in the public interest, includes such issues as 
localism and diversity, which I understand is the main purpose 
of the hearing today.
    And it is my understanding that a number of the witnesses 
were added it at the last minute, and so hopefully we will be 
able to have more notice in the future, so we can make them 
more diverse in their structure. But as always, Chairman, 
appreciate you and appreciate your effort to be fair in all 
things. So I yield back.
    Mr. Conyers. Maxine Waters and I have known each other 
before she was in the Congress. Of course my presence goes back 
to a presidential dispute in the 19th Century which I was---- 
[Laughter.]
    I think it was called the Hayes-Tilden controversy. So I am 
so pleased. She has worked in the civil rights movement, she 
has been a state legislator, an activist in every respect. We 
are honored to have her on the Committee.
    Ms. Waters. Thank you very much, Mr. Chairman.
    I appreciate your comments about how long we've known each 
other. I am 100 years old and you are 125, so---- [Laughter.]
    Mr. Chairman, I want to thank you for agreeing to organize 
this field hearing on Comcast-NBC merger. I am very pleased to 
welcome you and my colleagues to Los Angeles as we do our due 
diligence to further investigate and understand the 
implications of this massive merger, and what it could have on 
our already heavily-consolidated media market.
    Over the past couple of months, I have been active in 
advocating for transparency and an open process in the Federal 
Communications Commission's review of this merger.
    I have been very pleased with the FCC's leadership in 
response to our calls for an extension of the initial comment 
period and public hearings.
    Similarly, I hope the Department of Justice is conducting a 
labor-intensive review, considering the impact this merger 
stands to have on competition and consumers.
    While I am not opposed to this merger, necessarily, I have 
long maintained that the Comcast-NBC merger raises serious 
questions and should not be rushed through an expedited review 
process.
    I also want to thank our witnesses for agreeing to testify 
today. As some will note, there are a few people who are 
missing from the panel, who were previously scheduled to 
attend. It is somewhat troublesome, that many independent and 
minority programmers, producers, writers, and directors, have 
been afraid to voice their concerns for fear of blacklisting, 
or other forms of retaliation within their industries.
    Indeed, due to the deregulation, and Federal agencies 
rubberstamped approval of media mergers today, only five 
companies own the major broadcast networks. Ninety percent of 
the top 50 cable networks produce three-quarters of all 
primetime programming, and control 70 percent of the primetime 
television market share.
    In 2007, minorities owned just 3.2 percent of the U.S. 
television stations, and 7 percent of the Nation's full-powered 
radio stations, despite comprising more than 34 percent of the 
population. Today, Comcast Corporation has acquired massive 
reach and influence on its path to becoming the Nation's 
largest cable company, whose first quarter profits this year 
reached $9.2 billion.
    In 2008, the company collected over $40.3 billion in 
revenue. Comcast owns cable franchises in 39 states. It has 
23.9 million customers, 15.3 million high-speed Internet 
customers, and 7 million voice customers.
    Under the merger agreement, Comcast Corporation stands to 
gain majority ownership and control of NBC Universal's two 
broadcast television networks, NBC and Telemundo, its 26 local 
owned-and-operated broadcast television stations, several 
national cable programming networks, a motion picture studio, 
an international theme park business, and NBC's online content 
business.
    While both the FCC and DOJ have the statutory authority to 
review media mergers under our Federal antitrust laws, the 
FCC's process allows for a more comprehensive public interest 
analysis.
    Factors considered to be in the public interest may include 
a deeply rooted preference for preserving and enhancing 
competition, accelerating private deployment of advanced 
services, promoting diversity of license holdings. Let me say 
that again. Diversity of license holdings, and generally 
managing the spectrum in the public interest.
    The FCC's process incorporates the antitrust concerns that 
the DOJ must follow. Under the Clayton Act, the DOJ will 
evaluate whether the merger will substantially lessen 
competition or create a monopoly. Accordingly, Comcast has 
advanced various public interest commitment, pledging its 
dedication to preserve competition and improve minorities, and 
underserved populations, in all aspects of media programming, 
production and distribution.
    As I understand today, both Comcast and NBC have released a 
joint statement outlining their plans for corporate diversity 
and inclusion. While this may be a positive first step, I am 
anxious to learn more about the proposed plan and how it 
proposes to meaningfully involve and create opportunities for 
women and minorities in executive leadership, management, 
advertising and programming.
    Therefore, Mr. Chairman, I look forward to hearing from our 
panel of witnesses, so that they can help this Committee 
understand the scope of this merger. Their diverse views and 
perspectives will shed light on the type of considerations the 
DOJ must take into account while reviewing this merger.
    It is my hope that the parties to this merger can find ways 
to mitigate the potential harm this deal could have on 
customers, competition, and minority communities' access to 
quality and affordable broadband service.
    Mr. Chairman, let me just close by saying this has been an 
interesting experience. In opening up and expanding the comment 
period, and calling for public hearings, we have been deluged 
with nonprofit organizations, churches, civil rights 
organizations, all talking about their donations from Comcast.
    And while we take this opportunity to say to Comcast, we 
appreciate the donations to the nonprofit organizations, that 
has nothing to do with this competition and ownership that we 
are talking about today. So they should continue to give the 50 
cents to the Boy Scouts. But we are talking about competition 
and ownership.
    So if there is anybody here today who wants to talk about 
how much money you have given to the NAACP, the Urban League, 
to Al Sharpton, to anybody else, this is not the place to do 
it. Thank you very much.
    Mr. Conyers. Thank you so much, because it was your efforts 
that persuaded the FCC to hold their own inquiries, and that 
they have announced that they will be starting in Chicago, and 
that there will be other hearings throughout the country.
    I turn now to Steven Cohen from Memphis, Tennessee, a 
wonderful person. We were working together with members of the 
Harry Belafonte family, before we even met, and he has been a 
wonderful and important addition to this Committee, and we 
recognize him now.
    Mr. Cohen. Thank you, Mr. Chairman. It is always an honor 
to be in your presence and that of Congressman Waters, who I 
learn so much from, and the other Members of the Committee as 
well.
    I am from Memphis, Tennessee, although I did go to high 
school in Pasadena, at the polytechnical school, in the era of 
Mike Garrett, but I am a Memphian, and there are a lot of 
connections between Memphis and Los Angeles. We gave you Pau 
Gasol. We loaned you Elvis, Cybil and Isaac. But you did us the 
great favor in Danny Thomas, and bringing the world's greatest 
clinic and research facility for childhood cancers and 
childhood catastrophic illnesses to Memphis, St. Jude's 
Children's Hospital, and we thank you for that.
    This is a very important issue and while most mergers are 
not, in reality, in the public interest, they are in the 
interest of the business and the executives, as we have seen in 
so many places in our society.
    Where we have had mergers of airlines and mergers of large 
scale, the consumer loses, and that is almost inevitable, the 
consumer loses, the idea of being in the public interest is a 
fact of Mr. Gohmert's cynical perspective. And by the way, 
Congressman Gohmert, it was nice to hear you say robust. I just 
was waiting for public option. [Laughter.]
    There has been a lot written, and I have read a lot in the 
testimonies about what Comcast has done, or not done, in the 
way of minority programming and employment.
    One thing I am interested in hearing from the panelists is 
not simply what Comcast has done, and that is indeed important, 
but what other cable companies have done, and how Comcast 
compares to others in the industry, how NBC compares to others 
in the industry, and if this is an industry-wide and a national 
problem, of if it is a Comcast problem, and if Comcast is doing 
better than the others, maybe we need to encourage the others 
to do better.
    And I think what Congressman Waters was getting to, 
something--and it is more her book than my book--about teaching 
am an to fish rather than giving him a fish. And that is so 
important, that if you give people opportunity then they can 
have a lot of benefits and pass them on, generationally. And 
that needs to happen.
    So I am here to listen, and see how Comcast and the cable 
industry, and the broadcast industry, overall, is doing in 
helping minorities, women, African Americans, Hispanics, 
etcetera, in getting an opportunity to participate in the great 
American Dream. I thank you, Mr. Chairman, for having the 
hearing and for allowing me to attend.
    Mr. Conyers. Thank you. Congresswoman Judy Chu is a 
replacement, in her own right, for Hilda Solis. She represents 
part of Los Angeles and environs. We were very pleased that she 
was assigned to this Committee.
    Dr. Judy Chu.
    Ms. Chu. Thank you, Mr. Chairman, and thank you for 
bringing this very, very important hearing to our area. There 
are many issues in the Comcast-NBC Universal merger. But for 
me, the primary issue is diversity.
    I noted with interest, facts that leapt out at me from Mr. 
Kang's testimony, and that is the recent study by Children Now, 
which found that in the 8 to 9 p.m. television viewing family 
hour, it is the least ethnically diverse, with only one in 
eight programs having a mixed cast, and that this sends a 
highly-skewed message about diversity in America to viewers, 
especially children.
    And the UCLA Chicano Studies Research Center, which found 
that television programming was not representative of the 
Nation's ethnic and racial diversity. They found that 40 
percent of all primetime series had all-White characters, and 
80 percent of all primetime series were White-themed, and that 
the lack of minorities on television is both disproportionate 
and unsettling, and does not reflect our Nation's changing 
demographics.
    This is particularly at issue in California which is a 
majority/minority state, where 53 percent of the population 
here, and the issue about diversity is not just about 
programming, but it's also about diversity in management and in 
contracting opportunities.
    I was shocked to read that today, five companies own the 
broadcast networks. Ninety percent of the top 50 cable networks 
produce three-quarters of all primetime programming and control 
70 percent of the primetime television market share, and that 
these same companies own the Nation's most popular newspapers, 
and over 85 percent of the top twenty Internet news sites.
    This merger will consolidate the market even further, and 
so we are at a very critical juncture. Today, I would like to 
hear how the issues of diversity will be addressed and I look 
forward to the testimony.
    Mr. Conyers. Thank you, and we are so pleased to have 
Suzanne de Passe here with us, Frank Washington, Dr. Hunt, 
Darnell Hunt of UCLA, Kathryn Galan, executive director of the 
National Association of Latino Independent Producers. The 
president of the National Hispanic Media Coalition, Alex 
Nogales. Professor Allen Hammond of the University of Santa 
Clara Law School. Mr. Will Griffin, the chief operating officer 
of Hip Hop On Demand, even though he went to Dartmouth. The 
vice president of the Communications Workers, Jim Weitkamp, is 
here. Stanley Washington, CEO of the National Coalition of 
African American Owned Media.
    Alfred Liggins, III, president and CEO of Radio One, and 
president of TV One. Attorney Samuel King, whose presentation 
and work I found very interesting, who is from the San 
Francisco Bay Area.
    And we will begin our testimony with Mrs. Paula Madison, 
the executive vice president for diversity at NBC Universal. 
She has been at GE for 18 years, and has been working at 
developing the programs and company culture that enable NBC to 
better reflect the makeup of its globally diverse customers.
    She was president and general manager of KNBC, NBC's owned 
and operated station in Los Angeles, the first African American 
woman to become general manager at a network-owned station in a 
top five market, and we are delighted she came all the way from 
New York to do that, and we welcome you here to begin the 
testimony.

     TESTIMONY OF PAULA MADISON, EXECUTIVE VICE PRESIDENT, 
                    DIVERSITY, NBC UNIVERSAL

    Ms. Madison. Thank you very much, Mr. Chairman. Chairman 
Conyers, Representative Waters, and distinguished Members of 
the Committee, it is truly an honor to appear at this field 
hearing in a city that I love and call home.
    As the backyard to the media and entertainment industry, 
the core driver of jobs in Los Angeles area economy, it is an 
ideal setting for today's discussion of the Comcast-NBCU joint 
venture.
    I also want to give special thanks to the Committee for 
choosing the California Science Center as the site for the 
field hearing. It is my home away from home and a place where I 
am proud to serve as chair of the board of directors.
    Whether through my family's majority investments in the LA 
Sparks, our city's beloved WNBA team, our Broadway Federal 
Bank, founded by the iconic Black architect, Paul Williams, or 
my board involvement with USC's Annenberg School, the United 
Way of Greater Los Angeles, and the California African American 
Museum, which is located right next door, I am an engaged and 
committed member of our community.
    That same ethos has governed my more than two decades as an 
executive at GE and NBC Universal. My career at NBC began at 
WNBC, the New York City owned and operated station. I rose to 
the rank of vice president and news director, where I was 
honored to win a Peabody award for investigative journalism, 
before joining KNBC in Los Angeles, the number two market, as 
the Nation's first African American female president and 
general manager.
    In that role, I experienced, firsthand, the challenges and 
opportunities that come with being a person of color in the 
media and entertainment business, and through the years, I 
learned, sometimes the hard way, about the importance of 
identifying and grooming talent, meeting numbers, both budget- 
and ratings-wise, and navigating the precarious path up the 
corporate ladder.
    So when Jeff Zucker approached me, in 2007, to become the 
executive vice president for diversity at NBCU, I had a tough 
choice to make. I could stay as the president and general 
manager of what had become one of the company's top-performing 
stations. Or I could take on a new challenge and help the next 
generation of diverse executives, entry-level, and otherwise, 
succeed in pursuing their dreams of making it in this business.
    Although I didn't need to, I took that new challenge and 
sit here today, proud of my company and the leadership we have, 
and continue to show, in opening the doors of opportunity for 
those who want to pursue career paths, both in front of and 
behind the camera.
    It is also why I sit here today, excited about Comcast's 
commitment to investing in NBCU for the future.
    My president and CEO, Jeff Zucker, and Brian Roberts, 
Comcast chairman and CEO, spent nearly 5 hours discussing the 
transaction with the full Judiciary Committee at a hearing in 
Washington, D.C., in February.
    Today, Comcast and NBCU have announced some new important, 
exciting and formal diversity commitments, that expand upon 
earlier commitments. Thee substantive joint commitments, 
attached in full to my written testimony, span a multitude of 
areas, ranging from workforce recruitment/career development, 
supplier diversity, media ownership, programming, and community 
investment partnerships.
    Among some of the more noteworthy commitments are Comcast 
adding two new independently-owned and operated cable networks 
to its system for each of the next 3 years, starting in 2011, 
with a pledge that at least half of the six new networks will 
have a substantial minority ownership interest.
    Establishing four new external diversity advisory councils 
to facilitate open communication on the development, monitoring 
and evaluation of the company's diversity initiatives, and 
expanded video-on-demand offerings, with African American, 
Hispanic and Asian Pacific programming content.
    In closing, I would like to say that all of us who work in 
the media and entertainment sector understand, particularly in 
these difficult economic times, how very important investment 
is to the continued success and survival of our industry.
    Whether it's local or national news programming, a 
blockbuster hit on broadcast television, or the big screen, 
quality content is expensive to produce. Comcast's investment 
in NBC Universal will ensure that we continue creating 
compelling programming and bringing new jobs to Southern 
California.
    I understand that some Members of the Committee, and a 
number of my fellow witnesses, many of whom are long-time 
friends, have questions and concerns about the Comcast-NBC 
Universal joint venture. But as a 20-plus year veteran of NBCU, 
who continues to work in the industry because I believe in my 
company, I am confident that the commitments Comcast and NBC 
Universal have made will provide consumers with what they 
demand--more engaging, compelling and diverse content, 
delivered to them in new and innovative ways, any time and 
anywhere they want.
    Thank you for the opportunity to be a part of today's 
hearing, and with me, I have over 230 letters from 
organizations in support of the Comcast-NBC Universal joint 
venture, that I would like to submit to the record.
    I look forward to answering the Committee's questions. 
Thank you.
    [The prepared statement of Ms. Madison follows:]

                  Prepared Statement of Paula Madison

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. There are no contributions or donations being 
made in those letters, are there?
    Ms. Madison. Not at all.
    Mr. Conyers. Well, 230. I will have to take that under 
advisement, because if every witness submits a couple hundred 
letters, this will become the most referenced hearing in the 
congressional history. And so I think we are going to have to 
trim that number down a little bit.
    Ms. Madison. Okay. Thank you.
    Mr. Conyers. Our next witness is Samuel Kang, a lawyer, 
with a sort of modest bio, from San Francisco. A commissioner 
on Alameda County Parks Recreational Commission, and yet the 
preparation that you submitted to us was very moving to me. I 
want to congratulate you for it and welcome you to the hearing.

         TESTIMONY OF SAMUEL KANG, MANAGING ATTORNEY, 
                   THE GREENLINING INSTITUTE

    Mr. Kang. Well, thank you, Mr. Chairman. That says a lot, 
coming from you, a civil rights leader, and pioneer.
    Mr. Chairman, and Members of the Committee, it is indeed my 
honor and my pleasure to speak to you this morning.
    The Greenlining Institute is a nonprofit advocacy 
organization that seeks to protect consumer interests, while 
partnering with some of the largest companies in America, to 
better serve this country's multiethnic and underserved 
communities.
    Although there are a myriad of issues and significant 
problems with this merger, I will limit my testimony to three 
key issues in the interest of time, and that is one, diversity 
in ownership, two, the impact on our democracy, and three, what 
a merger would mean for our economy.
    So over the last 20 years, media consolidation has 
diminished independent voices and source of information, 
particularly diverse voices. Unfortunately, the proposed merger 
does not seem to provide much to improve the situation, and as 
Congresswoman Waters and Chu have stated, the numbers just 
speak for themselves in terms of ownership.
    But the question is: What is the problem with the lack of 
minority ownership? Well, the answer is this. It has a direct 
correlation with the lack of minority programming. So what is 
Comcast's role in this? Comcast may state that there is not a 
problem, and point to diversity success stories, like BET, TV 
One, and Oxygen.
    The reality is, that despite Comcast and NBCU's substantial 
holdings, none of these channels is minority-owned. Many so-
called minority stations are in fact owned by large media 
conglomerates. BET is owned by Viacom. Comcast holds a 
substantial ownership in TV One, and a large interest in Oxygen 
actually belongs to Time Warner.
    Comcast's leadership might reveal some of the reasons for 
this deficiency. The company's 13-member board of directors 
includes only one woman and one person of color.
    A report by the Hispanic Association on Corporate 
Responsibility gave Comcast a failing grade on the diversity of 
its workforce.
    NBC, similarly, has a poor track record, with Ms. Madison 
aside. For example, NBC's CEO, Jeff Zucker, admitted that even 
though NBC runs Telemundo, one of the largest Latino TV 
networks in the country, they have no Latinos on the board or 
executive team. This is quite disturbing.
    Comcast and NBC both say they are serious about diversity, 
but the truth is, both struggle, when it comes to the number of 
minorities within their workforce and management who actually 
have the ability to hire or influence content.
    But why, exactly, is diverse programming such a vital 
issue? The answer is that diverse programming has a critical 
impact on the health of our democracy.
    In 2009, the American Economic Review, one of the leading 
economic journals in this country, published a ground breaking 
study that showed that Spanish language local television news 
can substantially boost Hispanic voter turnout. Hispanic voter 
turnout increased by as much as 5 to 10 percentage points in 
markets where Spanish language local television news was 
available.
    Local news in Spanish causes about one in five, one in five 
Spanish language news viewers, who had never voted before, to 
start voting. The results are real and they are significant.
    If you build it, they will come, and they will vote.
    Unfortunately, Comcast and NBCU have a poor track record of 
promoting minority perspective and preserving local content. 
This is most starkly demonstrated by NBC's systematic 
dismantling of Spanish language stations after NBC took over 
Telemundo.
    For example, in December 2006, NBCU eliminated locally-
produced Telemundo stations newscasts in seven markets. They 
were instead replaced with regional content transmitting from 
consolidated hubs. The markets that were gutted of its local 
programming include Houston, Dallas, San Antonio, San Jose, and 
Phoenix. The gutting consisted of terminating dozens of 
reporters, camera persons, production team members, and 
producers. These markets alone comprise five of the top ten 
Hispanic markets in the country.
    In response to audience outrage, NBCU brought back four 
local Telemundo newscasts in February 2010, Dallas, Houston, 
San Jose and Phoenix. However, these news casts rely on reports 
and images received from NBC News sources, not from locally-
generated content, and only a smattering of content is locally 
produced, and the resources are still threadbare.
    Comcast has demonstrated a penchant to cut local content as 
well. In 2008, Comcast consolidated operations in Denver, 
Colorado, and gutted local coverage of nearby Colorado Springs. 
That same year, Comcast consolidated its East Coast operations, 
cutting 300 positions, by combining six regions into four.
    In 2009, Comcast too a hatchet to New England Cable News, 
and most recently did it against to Sarasota and Fort Myers-
Naples, in Florida. What is most disturbing about these 
practices is that both NBCU and Comcast seem proud about their 
track record.
    The proposed marriage of NBCU and Comcast seemingly is a 
union of two corporations that operate by remarkably similar 
modus operandi, and that is to gut, to cut, and to strut.
    The final point I would like to highlight is how Comcast, 
in this proposed merger, is likely to impact the economy. As 
the Nation's largest cable company, and the Nation's second-
largest Internet service provider, Comcast employs and 
contracts with numerous business enterprises.
    Therefore, the fact that Comcast has demonstrated, at best, 
a weak commitment to contracting with minority and women-owned 
businesses, is extremely concerning.
    The procurement of minority women and disabled veteran-
owned businesses, otherwise known as supplier diversity, has 
been long led by two prominent leaders over the last several 
years. Specifically, Verizon and AT&T's efforts in California 
have become national models of supplier diversity.
    Comcast has neither been transparent nor active in supplier 
diversity. In 2009, Comcast spent over $315 million in outside 
procurement in California, less than 16 percent of that total, 
16 percent, a paltry $48.5 million, were attributed to minority 
women and disabled veteran-owned business combined.
    Verizon and AT&T directly injected almost $600 million in 
diverse businesses in 2009 alone, most of it benefiting small 
businesses, and creating jobs in diverse communities in the 
process. In stark contrast, Comcast's supplier diversity 
efforts are negligible, and yet, Comcast competes, head to 
head, against AT&T and Verizon.
    So when Comcast takes customers and revenues away from AT&T 
and Verizon, Comcast is siphoning away hundreds of millions of 
dollars from California's diverse communities. As a result, 
this would take away much-needed jobs that otherwise would have 
been created.
    If Comcast is allowed to get bigger, and further 
proliferate their current business practices in California, the 
state's diverse economies will be put in imminent danger.
    Mr. Chairman, the scenario that I am presenting is not 
merely theory. It is rooted in what Comcast CEO Brian Roberts 
has already confirmed. In a previous congressional hearing, Mr. 
Roberts all but assured job losses would directly result from 
the merger. All that he could promise was that the merger would 
lead to no massive layoffs.
    It is unacceptable, that when everyone is trying to figure 
out how to create jobs, Comcast's best prognosis is no massive 
layoffs. But Comcast is only following its own MO, that is, to 
gut, to cut, and to strut.
    So how come there are such gaping deficiencies in Comcast's 
application? A major reason is the lack of public input in the 
regulatory process. After today, Congress will have held five 
hearings on this landmark transaction. The FCC still has yet to 
hold one. The FCC took an adequate first step with the 
announcement of one event in Chicago. Unfortunately, the 
Chicago event is classified as a forum and not a hearing.
    I am encouraged by the prospect of more hearings, but they 
have to be a formalized and official public hearing, where the 
FCC, led by Chairman Genachowski, can gain input directly from 
members of the public.
    We have learned from the BP disaster, what can happen when 
there isn't diligent and transparent regulatory scrutiny. The 
scrutiny must be on the front end, not an afterthought. I 
sincerely hope that this Administration's regulatory scrutiny 
of the Comcast merger is more comprehensive than its regulatory 
scrutiny of offshore drilling.
    Comprehensive hearings require public hearings. Otherwise, 
the consequences could be just as disastrous. Thank you very 
much.
    [The prepared statement of Mr. Kang follows:]

                   Prepared Statement of Samuel Kang

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Our next witness is Alfred Liggins, III, 
president and CEO of Radio One and TV One, and one of the 
largest radio broadcasting companies in urban radio. He has 
gone to a number of schools and universities, and then became 
chief operating officer at Radio One, served as the production 
assistant with CBS Records, the WOL AM account manager, and 
then general sales manager.
    Mr. Liggins helped launch TV One with the Comcast 
Corporation in 2003. We welcome you to the Committee.

      TESTIMONY OF ALFRED C. LIGGINS, III, PRESIDENT AND 
               CHIEF EXECUTIVE OFFICER, RADIO ONE

    Mr. Liggins. Thank you, Mr. Chairman, Ms. Waters, and the 
other Members of the Committee. I wanted to clear up a few 
things, first, about Radio One and TV One, and our relationship 
and status as a minority company, minority-owned company.
    First of all, Radio One is minority supplier, with a 
minority supplier development council. Between my mother and 
myself, my mother, Cathy Hughes, we control 90 percent, 
actually 95 percent of all the voting classes of stock of Radio 
One. We also, even more importantly, control 40 percent of the 
economics of Radio One, which will probably, in time, go 
higher.
    But that 40 percent is more than Rupert Murdoch controls, 
economically, of Fox. It's more than Sumner Redstone controls 
of Viacom, and Bill Gates controls of Microsoft. And nobody 
would argue whether or not they own their companies. And so 
when I hear that Radio One, because we are public, is not a 
minority-owned company, or owned by Cathy Hughes, I sometimes 
take offense at it because there is a very high bar set for us, 
for ownership. But we believe that bar is very high now and 
will continue to go higher.
    Radio One owns 37 percent of TV One, and through a series 
of transactions that will be announced shortly, over the next 
12 to 18 months, we will be extending that ownership from 37 
percent up to 66 percent. So we are going to be substantially 
increasing the minority ownership of TV One, even though we 
already control the company now and are the single largest 
shareholder.
    Thank you for the opportunity to testify here today on the 
pending joint venture between Comcast and NBC Universal. There 
is one simple truth that should govern our thinking about the 
joint venture between Comcast and NBCU.
    General Electric, which has had a controlling share of NBCU 
since 1986, is selling its interest in NBCU. The acquiring 
company could be a partially-owned foreign firm, or one with 
little experience in television or management of far-flung 
assets.
    It could be a company that has no appreciation for the 
value of diversity, or no demonstrable track record in 
diversity, whatsoever. Happily, that will not be the case. GE 
has chosen to work with Comcast. There are some critics of the 
Comcast-NBCU deal. They generally argue that big is bad, and 
insist that this combination cannot possibly be good for those 
concerned about diversity or competition in media.
    I have an alternative view, based on my own personal 
experience with Comcast, at both the highest executive and 
operational level. Based on my 8-year relationship with 
Comcast, I can offer a personal testament to Comcast's 
commitment to TV diversity. Eight years ago, I began to pitch 
the idea of a new cable television channel that would provide 
real entertainment and education to the African American 
community.
    Television that assumed the audience's intelligence instead 
of insulting it. Programming that would inspire, uplift and 
educate. Programming that would allow the African American 
community to see itself as it really is, but also would allow 
our fellow citizens to see us too, unfiltered. Our goal was to 
create the Nation's only African American-owned, controlled and 
operated programming service, given that BET's found had long 
ago sold off his network.
    For the most part, cable operators granted me polite 
audiences to pitch carriage on their systems, but then 
ultimately turned me down as occurs with most programmers, 
these days. There was one exception. Brian Roberts, Steve 
Burke, David Cohen, and the senior leadership team at Comcast, 
seemed to get it, right away.
    Comcast understood the value and importance of their 
African American customers and quickly agreed to become our 
major strategic partner.
    They gave us significant exposure on their cable systems, 
which helped to create momentum with advertisers. They also 
negotiated a deal that helped finance the network, made a 
sizeable cash investment, while allowing my team to retain 
significant ownership, even in excess of Comcast's own 
ownership stake.
    They ceded management control and worked with me to allow a 
competitor of theirs, DirecTV, to also acquire an interest in 
the network, so the network could grow even further.
    And it was with great pride that we launched TV One on 
January 19, 2004, the day that the Nation paid tribute to 
Martin Luther King.
    Today is one of the Nation's two major African American-
oriented channels and the only one owned by African Americans. 
TV One now reaches more than 50 million homes by cable and 
satellite. We deliver a wealth of original programming designed 
to delight, inform, and intrigue millions of African American 
adults.
    By staying true to our original vision, we have expanded 
our viewership to reach adults of all races and creeds, so that 
they too can see us as we are, as ourselves.
    I think it's significant that Comcast showed this 
commitment to diversity when its core business was in 
distribution rather than production of television, and now that 
they are joining forces with NBCU, they have committed, in 
writing, to do even more to promote diversity.
    Some may have concerns about GE's stewardship of NBCU. That 
is not something for which Comcast should be held accountable 
for. Rather, that is something for which Comcast can be the 
solution.
    Because of my personal experience working with Comcast, I 
am confident, that if allowed to acquire NBCU, Comcast will 
look for opportunities to create managerial and content 
diversity.
    Mr. Chairman, I know the men and women of Comcast, as I 
know you do. I believe they are a good, solid company that has 
been, and will continue to be, responsible to the needs of our 
communities. I look forward to answering any questions.
    [The prepared statement of Mr. Liggins follows:]

              Prepared Statement of Alfred C. Liggins, III

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Conyers. Our next witness is Mr. Stanley Washington, 
president of the National Coalition on African American Owned 
Media. He was a regional vice president for American Express, 
worked for the publishing company, Dow Jones & Company, the 
Walter Kaitz Foundation, and is a graduate of Morehouse 
College, where my son attempted to stay in school, and has a 
degree in marketing. We welcome you to this proceedings.

TESTIMONY OF STANLEY E. WASHINGTON, CHAIRMAN AND CEO, NATIONAL 
           COALITION OF AFRICAN AMERICAN OWNED MEDIA

    Mr. Stanley Washington. Thank you, Mr. Chairman. I must 
admit, I am happy to be out of Morehouse myself. I would like 
to also say thank you to Congresswoman Waters and to the 
Committee.
    NCAAOM calls for a boycott of Comcast. The time has come 
for Comcast to understand that African Americans are no loner 
interested in living on the Comcast plantation. The National 
Coalition of African American Owned Media further denounces 
Comcast and its nonexistent carriage of 100 percent African 
American-owned channels on its nationwide platforms of 
approximately 24 million homes, and underscores its opposition 
to the Comcast-NBC merger, unless specific ownership conditions 
are enforced by the FCC and the DOJ.
    In a recent LA Times article dated April 27, I stated, for 
decades, Comcast has shut the door to widely-distributed, 
wholly-owned African American channels, and pension funds, by 
virtue of their investment in Comcast, are supporting apartheid 
right here in America.
    Comcast brings in approximately $3 billion per month, $36 
billion per year, from nearly 24 million cable subscribers. 
Based on the large number of African American-populated cities 
which Comcast serves, we estimate there are millions of African 
American subscribers that contribute approximately 40 percent, 
or $15 billion of Comcast's annual revenue. Based on the 
enormous support that the African American community has shown 
Comcast for over four decades, we find it unacceptable that 
none of the 250-plus channels that are offered on the Comcast 
platform are 100 percent African American owned and widely 
distributed on their nationwide platform.
    Further, in many of the U.S. cities where Comcast has a 
dominant share of the cable market, African Americans comprise 
a majority, or near majority of the population.
    For example, in Philadelphia, the city in which Comcast is 
headquartered, African Americans make up more than 43 percent 
of the city's population.
    A little more than half of all the residents of Washington, 
D.C. are African American. In Detroit, eight out of ten 
residents are African American. Other Comcast markets with high 
concentrations of African American subscribers include Atlanta, 
Baltimore, Birmingham, Chicago, Jackson, Mississippi, Memphis, 
New Orleans, Oakland, California, Pittsburgh, Raleigh-Durham, 
and many more.
    Nevertheless, the availability of African American wholly-
owned media does not reflect these statistics. Indeed, not one 
of the networks on Comcast's cable television platform is 100 
percent African American owned and widely distributed.
    Even channels that are African American targeted content 
are not 100 percent owned by African American companies. Viacom 
owns BET and Comcast owns 33 percent of TV One. The proposed 
merger will perpetuate, or even worsen the lack of 100 percent 
African American-owned cable networks.
    The deal will reduce competition by permitting Comcast-NBCU 
to play favoritism to their massive portfolio of 44 owned cable 
networks, and more to be launched in the future, in lieu of 100 
percent African American-owned channels which will never get 
widely distributed on the Comcast platform.
    So we have no opportunity to survive, or thrive, and to 
support these facts, please refer to the FCC carriage complaint 
filed on January 5, 2010, by the Tennis Channel against Comcast 
for this very reason.
    Additionally, Comcast was caught blocking and slowing down 
competing video content on their broadband platform, which 
recently resulted in a class action law suit against Comcast, 
and which they settled in the amount of $16 million for their 
deplorable behavior.
    These are just two examples of their anti-competitive 
conduct.
    Dr. Maya Angelou said it best. When someone shows you who 
they are, believe them the first time. 2009 compensation 
packages for Brian Roberts, chairman, and Steve Burke, chief 
operating officer of Comcast, were in excess of $35 million 
each. These two men, Brian Roberts and Steve Burke, paid 
themselves significantly more than what Comcast paid to wholly-
owned African American media, collectively.
    Comcast spends approximately $7 billion a year on content 
from cable networks, and less than $2 million per year is 
allocated to wholly-owned African American networks.
    Matt Bond, Comcast executive vice president, Programming 
Content Acquisitions, should be subpoenaed to testify, under 
oath, as to how many African American-owned companies have been 
allowed to pitch him, or not pitch him, for carriage 
distribution agreements.
    How many African American-owned companies have been 
consistently denied such opportunities? Clearly, the answer is 
disturbing, given the lack of 100 percent owned African 
American cable networks, widely distributed, on the Comcast 
platform.
    And it is not for lack of trying. Businessman Alvin James, 
who actually is sitting here with me today, right behind me, 
along with Marlin Jackson of the Jackson Five, attorney Willie 
Gary, heavyweight champion, Evander Holyfield, baseball icon 
Cecil Fielder, raised in excess of $60 million to fund a 100 
percent African American-owned network called the Black Family 
Channel.
    Instead of Comcast ensuring that the Black Family Channel 
succeeded, they exploited these African American entrepreneurs, 
by charging them millions of dollars in unnecessary launch 
fees.
    We ask, if Comcast did not support a network called the 
Black Family Channel, then why should Black families support 
Comcast? I had a letter sent to Brian Roberts dated April 9, 
2010, stating my position, and requesting a meeting to resolve 
this urgent issue.
    On May 12, I introduced myself to Brian Roberts at the NCTA 
cable show in Los Angeles and requested a meeting with Mr. 
Roberts about these issues. Unfortunately, the meeting request 
was denied.
    If this is their conduct while they're trying to secure 
approval for the largest media acquisition in history, how do 
we think they are going to act when they get approved?
    The time has come for Comcast to understand that African 
Americans are no longer interested in living on the Comcast 
plantation. Until Comcast does business with African American-
owned media in a significant way, we are going to boycott, and 
campaign, to have African American families and supporters 
disconnect their services immediately.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Washington follows:]

              Prepared Statement of Stanley E. Washington

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Mr. Jim Weitkamp, vice president of the 
Communications Workers. He has been with them a long time, 
became part of the CWA staff in 1988 as the director for 
Southern California, and has been a leader in the workers' 
right protection activities. We welcome you.

   TESTIMONY OF JIM WEITKAMP, VICE PRESIDENT, COMMUNICATIONS 
                       WORKERS OF AMERICA

    Mr. Weitkamp. Thank you, Mr. Chairman. My name is Jim 
Weitkamp. I am vice president for CWA District 9, which 
represents 66,000 employees in California, Nevada, and Hawaii. 
Nationally, CWA represents more than 700,000 employees, 
including workers at Comcast and NBC Universal.
    So I believe I can provide a unique perspective on the 
impact of this transaction on workers and the industry.
    My testimony will focus on three areas. First, the impact 
of this combination on jobs. Second, how the proposed merger 
will aggravate current anti-competitive behavior in the cable 
industry. And third, the problems that will result in the 
emerging Internet video marketplace.
    The bottom line is this. The public must be protected from 
the significant harms created by a combination of such 
unprecedented scale.
    A Comcast-NBC combination will lead to the loss of good 
jobs. Comcast-NBC debt will increase by approximately $8 
billion after this transaction, and to pay for this debt, the 
company will have two choices. Cut jobs or raise cable prices. 
Either way, consumers and workers lose.
    In addition to job loss, the combination will depress labor 
standards. Comcast has a terrible track record of aggressive 
action to eliminate worker organization at companies that it 
acquires. As a result, Comcast wages and benefits trail those 
at unionized telecom companies by about one-third. This has a 
considerable impact on minority workers who comprise about one-
third of the workforce in this sector.
    In 2002, Comcast acquired AT&T broadband. At the time, CWA 
represented about 5,000 cable employees, nationally, and about 
a thousand, here, in California, including units in Los 
Angeles, Sacramento, Modesto, Fresno, and the Bay Area.
    Comcast executives reassured the CWA leadership that they 
would respect their employees' right to a union voice.
    Well, I can tell you what a Comcast commitment means. After 
Comcast took over AT&T broadband, a senior vice president of 
the company, in Oregon, announced we're going to wage war 
directly to certify CWA. And that's precisely what Comcast did.
    In Fresno, Modesto, Sacramento and Los Angeles, Comcast 
delayed bargaining for more than 18 months, denied workers wage 
and benefit improvements that they provided to non-union 
employees, and supported decertification elections.
    Across the country, Comcast refused to reach agreement on a 
first contract in sixteen or the organized units that it 
acquired from AT&T.
    In the San Francisco Bay Area, where CWA has represented 
cable workers for many years, Comcast initiated decertification 
elections as recently as 3 years ago. The workers elected to 
keep union representation, and we are now bargaining with 
Comcast over a new contract.
    But even here, Comcast has attempted to get around the 
union by shifting about half of its work to non-union lower-
wage employees. Where workers try to form a union, Comcast has 
fired and retaliated against union supporters.
    Two years ago, Comcast waged an aggressive campaign against 
employees in San Jose who sought union representation with CWA. 
The company scheduled weekly mandatory meetings to spread their 
anti-union message. In one of those meetings, a Comcast manager 
told the workers that anyone passing out union cards is like 
spam in his computer and he kills spam.
    In contrast, collective bargaining at NBC Universal dates 
back to the 1930's. Our NABET affiliate represents broadcast 
technicians at NBC, and although we are currently in difficult 
negotiations with NBC, and have been without a contract for 
over a year, the bottom line is that NBC workers have a 
collective voice through their union, a right that Comcast 
denies to their employees.
    Let me now turn to the anti-competitive issues associated 
with this transaction. There is already too little competition 
in the video marketplace. Cable rates have grown at three times 
the rate of inflation. This merger would provide Comcast-NBC 
with added incentive, an ability to engage in anti-competitive 
practices that would increase cable rates.
    After the merger, Comcast will own NBC's premier 
programming. It will have the ability to bundle its less-
desirable cable channels with must-have NBC programming. This 
forced bundling will raise other video providers' costs, which 
translates into higher cable rates for consumers.
    Today, some companies are trying to compete with the 
incumbent cable providers. They are investing significant 
resources to build their networks. This merger would provide 
Comcast-NBC with the incentive and ability to raise the prices 
it charges new entrants for must-have NBC and sports 
programming, effectively blocking or limiting competition, 
investment, and jobs that accompany those efforts.
    The third area of concern involves the online video market. 
The Internet allows consumers to access video content of their 
choice, unmediated by the prepackaged bundles of the cable 
company.
    The Comcast-NBC merger has the potential to bring this to a 
halt. A combined Comcast-NBC could limit consumers' online 
access to NBC content, or it could charge consumers higher 
prices to access that content, unless they are cable 
subscribers. This is the TV everywhere model, that Comcast and 
NBC have already begun to deploy, which forces Internet 
customers to buy cable packages in order to see content online.
    These actions protect the cable channel business platform 
at the expense of new video entrants, and devalue the broadband 
investment of competitive companies. The end result is that 
companies will invest less in broadband deployment, put less 
fiber in the ground, and hire fewer people.
    In summary, the Comcast-NBC merger's potential to limit 
growth, investment, and jobs, is not in the public interest. 
Federal regulators cannot pass this merger without carefully 
considering the significant impact emerging companies will have 
on video competition, choice, and jobs.
    Again, I thank the Committee for the opportunity to testify 
today and I ask that my written records be put, placed into the 
record.
                               __________

    Mr. Conyers. We will now hear from Mr. Will Griffin. What a 
mixed background you have here. You graduated from Dartmouth 
College, and the you went to Harvard for your law degree. You 
are the president and chief operating officer of Hip Hop On 
Demand, and yet you served in executive positions with Goldman 
Sachs, which you have not removed from your resume yet. And 
McKinsey & Company, the largest--what is it that they do?--in 
the country, and you have worked for the News Corporation which 
owns Fox.
    Now I can't hardly wait to hear your testimony, and we 
welcome you to the Committee proceedings.

         TESTIMONY OF WILL GRIFFIN, PRESIDENT AND COO, 
                       HIP HOP ON DEMAND

    Mr. Griffin. Thank you, Mr. Chairman, and Congressman 
Waters, and Members of the Committee. Well, how I got from Ivy 
League to hip hop can be explained by the fact that I am from 
Texas, where, unfortunately, John Carter is my representative, 
and no matter how much schooling I get, it can't smooth out my 
rough edges. So that pretty much explains that.
    I thank you for the opportunity to testify, and by way of 
background, I have seen the inner workings of most of the major 
media companies. So while in law school, my faculty adviser was 
Deputy Commerce Secretary Dennis Hightower, who was the first 
African American president of Walt Disney Television. As the 
director of the Harvard Consultation Project, I was advised by 
Motown Chairman Clarence Avant who opened the door of access to 
practically all the CEOs, and that gave me my start in the 
media industry. So you can blame him for part of it.
    Subsequently, at McKinsey & Company's Entertainment and 
Media Group, I worked on projects at Time Warner during its 
post-merger integration with Turner, and later joined News 
Corp. in the Strategy and Marketing Group.
    For the past 10 years, I have been an entrepreneur, an 
African American media producing film with Reuben Cannon, 
Bishop TD Jakes, and ultimately, running a film and television 
production company in conjunction with Stan Lathan and Russell 
Simmons, where, 5 years ago, we created and launched Hip Hop On 
Demand on Comcast.
    Those experiences have led me to support this joint venture 
with Comcast, as the controlling partner, for two overwhelming 
reasons. One, despite the testimony, Comcast actually has the 
best infrastructure of inclusion to build upon in the media 
industry, and second, African American consumers and policy 
makers have more potential leverage over Comcast than any other 
media company.
    I don't come to this conclusion lightly, because there is 
no doubt that the history of African Americans and media 
consolidation creates a visceral, negative reaction to any 
merger or consolidation.
    When I watched Congresswoman Waters' hearings on the 
financial services industry and the lack of diversity, I 
applaud. When I see you come out to the hip hop summits, I know 
your heart is in the right place, and you are connected to the 
issues in the community.
    Because I remember sitting in my dorm room, in 1992, when 
Bill Cosby expressed his desire to purchase NBC, a network he 
turned around, and was told that it was not for sale. It begged 
the existential question: Why? Many African Americans remember 
when Fox launched with a focus on African American programming. 
They had iconic shows like Queen Latifah's Living Single, 
Martin, Roc, New York Undercover.
    Then, through a series of acquisitions, mergers, stock 
swaps and expansion, into Fox News, the company has morphed 
into the monstrosity that we see today.
    From Queen Latifah to Glenn Beck. Why?
    More recently, Viacom's UPN and Time Warner's the WB 
merged, and the first casualties were the African American 
shows--Girlfriends, Eve, All Of Us, Everybody Hates Chris--that 
made up the bulk of their line-up. Why?
    Here is my answer. Because advertisers have only been 
willing to pay for a limited amount of African American 
impressions, and they will not pay for every African American 
view generated. It is why African American icons like Ebony/Jet 
are in decline. That should be the subject of future hearings, 
and I was delighted to hear you say that you will have more 
hearings on these issues, because if we are to remove the 
primary barrier to growth and sustainability of minority media 
companies, your intervention and oversight of the advertising 
industry is sorely needed.
    This is true of my own experience with Hip Hop On Demand. 
At about the same time we launched on Comcast, there other 
African American channels also entered into long-term 
distribution agreements, Vibe OnDemand, Quincy Jones III's 
channel and TV One. Two of the other companies quickly folded, 
despite a long-term distribution contract, because they were 
not able to secure advertisers.
    Fortunately, we had General Motors, The Coca Cola Company, 
and Reebok as charter sponsors. Then foreign-owned Adidas 
acquired Reebok and zeroed out the African American marketing 
budget. GM experienced their problems, came to Congress to bail 
them out, and returned to profitability, and they have not come 
back to our channel, despite the fact that we have experienced 
viewership growth in each and every quarter.
    If my company was paid for every one of the 500 million 
impressions that we generated, I could have made my own run at 
NBC. The root of the problem is this. Advertisers' 
unwillingness to allocate minority marketing budgets in 
proportion to viewership and ratings.
    Which brings me to why I support this transaction. Comcast 
has the best infrastructure of inclusion to build upon in the 
media industry. Some of the very systems at the core of the 
Comcast media empire were actually birthed by African American 
media owners through some of your legislative efforts.
    The Washington, D.C. cable system, and Chicago cable 
systems were founded by Bob Johnson with funding from Herb 
Wilkins of Syncom, with pension fund money that you lobbied to 
get on their behalf, and I liken this corporate family tree to 
Thomas Jefferson/Sally Hemmings descendants. It is in your DNA. 
You might as well embrace it.
    I believe they have. In its official response to this 
Committee's questionnaire, Comcast has quantified thousands of 
minorities in management positions and its tens of thousands of 
minority employees. Moreover, in each of the last 5 years, that 
number has continued to grow at a rate more than Whites in its 
corporate structure.
    Now I read attorney Kang's testimony. I thought it was 
brilliant and well put-together. However, on the data, I 
believe there is a problem. There are 24,000 African Americans 
out of 90,000 employees. It would be virtually impossible for 
24,000 African Americans to show up anywhere and have someone 
not notice it.
    I believe that they have, the growth rate is strong, and 
the minority composition is vastly superior to any other media 
company. And I think it bears knowing that it is eons ahead of 
the advertising, telecommunications and financial services 
industry.
    That context is extremely important, because I would like 
to highlight some examples of having African Americans in 
leadership positions, has been invaluable to me as an African 
American media owner.
    When we launched with three other African American 
channels, it was because of Comcast Corporate Vice President 
Payne Brown, came to dozens of African Americans in the 
creative community, to educate us on video-on-demand platform 
and the investment Comcast was making to become the industry 
leader.
    When we saw the ability to get distribution and programming 
directly to our core viewers, we were one of the few who 
actually raised capital, in our case from Syncom and Pacesetter 
Capital, and we secured advertisers to pursue the opportunity. 
Once on the platform, we began to market our channel, get 
support from the African American general managers who run the 
cable systems in Chicago, D.C., Houston, South Florida, and the 
entire Western region, are all run by African Americans, and as 
part of our ongoing process of making viewers aware of our 
channel, we have supplied information to Comcast customer 
services teams, who are largely African American, and 
supervised by an African American senior VP. It certainly helps 
when explaining our channel to subscribers.
    The result is that according to a study by Starcom Media 
Group, African Americans are more than twice as likely to use 
video-on-demand than any other demographic.
    Finally, when our channel had trouble securing sponsors, 
Comcast has packaged our channel, along with some of their 
properties, and was able to secure sponsors for us, which 
subsequently came to us directly.
    They have also served as our syndicator and secured 
distribution for us on Cox, Insight, Bresnan and other cable 
systems, almost doubling our reach.
    Now Congressman Cohen asked the question, how does Comcast 
compare to other cable operators? CableVision is the worst, on 
the record. You can't serve Harlem, Brooklyn, Queens, and not 
have any interest whatsoever in putting on African programming. 
Awful. Time Warner's difficult.
    We talked to every cable operator, and kind a like Alfred's 
point, Comcast was the only one who opened the door, and then 
were willing to walk us into other cable operators, despite the 
fact that they have absolutely zero equity participation in our 
company.
    Brings me to my second reason for supporting the 
transaction. African American consumers and policy makers have 
more potential leverage over Comcast than any other media 
company. Now I don't know how to characterize the attempt to 
exercise their leverage through an announced boycott today, but 
I think it's problematic, for many reasons.
    But as a result of its origins in the urban population 
centers, the bulk of Comcast's early and current subscribers 
are African Americans. The estimates range from 20 to 25 
percent of the subscriber base.
    If it fails to live up to its commitments to add more 
independent channels, promote African Americans into leadership 
positions, and allow minority media owners to purchase assets 
they divest, consumers could be mobilized and have a direct 
impact by switching service providers.
    This is superior to the leverage over General Electric at 
the moment, where we can only affect their through 
shareholders, pension funds, etcetera. Their leverage over 
Comcast is direct. It's also more immediate and direct than 
over any other media company and network.
    A second layer of leverage, unique to Comcast, is that in 
each of its markets, Comcast must get its franchises renewed, 
and many of the major markets are run by African American and 
Hispanic representatives, the city councils, directors of cable 
franchising commissions, at both the state and local levels. In 
Michigan, it is at the state level.
    This leverage is effective when combined with the Hispanic 
influence at state and local level in the Western and Southern 
regions. Now some have called for Congress and the FCC to 
exercise regulatory leverage at the Federal level, by mandating 
that Comcast set aside 25 channels for African American media 
owners, defined as 100 percent African American owned.
    It is not that the demand is too high. It is that the 
demand is unworkable. If you define African American media 
ownership at 100 percent, that undercuts the decades-long work 
that Congressman Waters and Congress have fought for for years, 
namely, getting public pension funds to invest in minority 
asset managers, who, in turn, invest in minority firms like 
Radio One and Hip Hop On Demand.
    By definition, taking money from pension funds would make 
our companies not African American owned. That standard cannot 
be adopted because it would reverse decades-long work to get us 
into the capital markets. And although we control the voting 
equity, in our case, almost all of the equity, we are still not 
considered African American owned by some. This definition is 
untenable. It may explain why we have not received an 
invitation, a call, an e-mail, or even a Facebook friend 
request to join the Coalition of African American Media Owners.
    The definition creates a coalition that is so exclusive, 
that there is nobody there. The idea that the company that 
Cathy Hughes founded, and she and Alfred Liggins built, that 
reaches tens of millions of African Americans each day through 
Tom Joyner, Roland Martin, and thousands of African American 
employees, is not ``Black enough,'' almost disqualifies someone 
from a serious discussion of African American media ownership.
    This line of racial purity in public policy almost cost us 
a chance at history. I submit that President Obama is Black 
enough, and so is TV One, and so is Hip Hop On Demand.
    The proposed myopic approach also tends to measure African 
American media ownership with a protractor, when what is really 
needed is a compass. The True North is heading in the direction 
of greater distribution and access on more platforms, increased 
leadership inside media companies, and combining our influence 
to secure our fair share of advertising dollars.
    In conclusion, True North is also exercising our potential 
leverage by staying connected to our viewers and communities, 
and working together to develop the next generation of African 
American media owners to travel along the path that we blaze 
today.
    For all the reasons stated above, I believe the proposed 
Comcast joint venture is a step in the right direction. Thank 
you..
    [The prepared statement of Mr. Griffin follows:]

                   Prepared Statement of Will Griffin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Thank you. Without objection, the Chair will 
be allowed to revise out of his introductory statement of you 
any remarks that might be considered snide or cynical, of any 
kind, at all, now that you have explained how you came to be 
what you are.
    We are very grateful that you are here.
    Mr. Griffin. Thank you.
    Mr. Conyers. Professor of University of Santa Clara Law 
School, Allen Hammond, and the former president of the Alliance 
For Public Technology, past chair of the AT&T 
Telecommunications Consumer Advisory Panel. We welcome you to 
the hearing.

   TESTIMONY OF ALLEN S. HAMMOND, PHIL AND BOBBIE SANFILIPPO 
     PROFESSOR OF LAW, SANTA CLARA UNIVERSITY SCHOOL OF LAW

    Mr. Hammond. Thank you. Thank you, Mr. Chairman, 
Congresswoman Waters, and distinguished Committee Members. I am 
going to talk, very briefly, about this merger. As you know, 
the FCC is considering the merger of Comcast and NBC, and I 
think there are potential dangers for minority ownership. I 
would like to identify those.
    Studies have shown that minority ownership of broadcast 
stations has enhanced diversity of news and public affairs 
programming provided to ethnic, minority and majority 
communities. Despite this fact, the FCC----
    Ms. Waters. Excuse me. Would you pull the microphone a 
little bit closer.
    Mr. Hammond. A little closer.
    Ms. Waters. And speak a little bit louder. Yes.
    Mr. Hammond. Thank you. I am sorry about that.
    Despite this fact, the FCC has too often failed to take 
this valuable contribution into account when formulating its 
multiple and cross-ownership policies.
    For instance, the Third Circuit Court, in issuing its stay 
of the commission's ownership rules, in its decision, 
Prometheus Radio Project v. FCC, recognized that the commission 
had failed to account for the impact of its policies on 
minority ownership.
    Historically, the FCC has not given sustained serious 
consideration to that impact, allowing greater concentration of 
ownership and therefore having an adverse impact on small 
minority and women-owned broadcasters.
    A study conducted for the FCC by myself, and others, was 
initiated in response to the court's stay. That study found 
that the commission's relaxation of the duopoly rule had no 
favorable impact on minority and women-owned commercial 
stations. And the reason that that is important will become 
clear in a moment, but I liken the situation with Duopoly Rules 
on to what we are proposing to do now with the merger of NBC 
and Comcast.
    For instance, the study found that from 1999 to 2006, the 
relaxation of the duopoly rule did not appear to have any 
positive impact on minority or female ownership of television 
stations.
    Specifically, the majority of broadcast group owners who 
benefited from the relaxation of the TV duopoly rule were the 
largest top 25 group broadcast owners, based on revenue, 
national market reach and/or the number of stations owned.
    As of 2005, they accounted for 83 of the 109 duopolies 
identified. Across all markets in which minority-owned 
television stations operated between 1999 and 2006--by the way, 
I should stop and say the only reason that this data only goes 
from 1999 to 2006 is because prior to that, the FCC collected 
no statistics on minority ownership, despite the fact that the 
minority ownership policy was in place since 1978.
    So across all markets in which minority-owned television 
stations operated between 1999 and 2006, the number of 
minority-owned television stations dropped by 27 percent.
    Within markets entered and/or occupied by TV duopolies, the 
number of minority-owned stations dropped by more than 39 
percent. By contrast, in non-duopoly markets, the number of 
minority-owned stations dropped by 10 percent.
    When National Broadcast Group owners became duopoly station 
owners as well, they were able to exercise some control over 
access to programming, and advertising dollars within specific 
markets.
    The net result of increased multiple ownership with local 
markets, coupled with the substantial national ownership, is an 
increase in duopoly owner control over market access to 
programming and ad dollars.
    The impact on stand-alone broadcasters, like minority 
owners, was that they found it more difficult to compete as 
they could not offer the same packages, or package deals with 
volume discounts for advertising across multiple stations in 
the markets.
    Less revenue meant less revenue for staff, less money for 
programming, which could have an adverse impact on diversity of 
programming, which is what minority-owned stations have been 
able to provide. To a greater extent, the majority-owned 
stations.
    The increase in demand generated by relaxing the ownership 
rules could also adversely affect minority broadcast stations 
seeking to acquire more desirable properties.
    For instance, soaring station prices bid up by the demand 
due to the relaxation of these multiple ownership rules in 
radio put minority outlets in double jeopardy. They couldn't 
afford to trade up to better facilities in their markets, and 
the stations against which they were competing were rapidly 
becoming parts of the large broadcast groups, capable of 
bringing significant economies of scale to market.
    And this is a paraphrase of a quote from Pierre Sutton, 
which was also agreed to by Amancio Suarez, who was then the 
secretary and treasurer of the American Hispanic Owned Radio 
Stations.
    Under the Telecom Act of 1996, the commission is obligated 
to perform quadrennial reviews regarding the media ownership, 
to determine whether or not its rules serve the public 
interest.
    The commission's reviews are crucial and during these 
reviews they should examine the policies on diversity and media 
ownership and begin compiling statistics on minority and women-
owned broadcast stations.
    The commission cannot know how its changing policies on 
media ownership affect minorities and women until it starts 
compiling and analyzing its own statistics and data.
    It cannot know the impact of the Comcast-NBC merger on 
minority ownership, unless it has this data.
    So this is especially important with regard to the disputed 
merger of Comcast and NBC. The commission is considering this 
merger before it has completed its 2010 quadrennial review, and 
before it has examined the current state of media ownership in 
America.
    The commission has not begun to compile its own statistics 
on competition, localism, and diversity, and cannot know how 
the merger of such powerful media corporations will affect 
competition among single-station broadcast owners and local 
media outlets.
    Similar to the experience of the aftermath of the duopoly 
rule relaxation, the Comcast-NBC merger would eliminate head-
to-head competition in the 11 major markets where NBC owns 
broadcast stations and Comcast operates cable franchises. These 
markets currently account for almost 25 percent of the U.S. TV 
households. Each of these markets would lose a competitor for 
local and political advertising. This could lead to a 
significant decline in competition in local advertising markets 
and excessive domination by the merged company.
    As a result, advertisers would lose an alternative outlet, 
but meanwhile, other local broadcasts, particularly small, 
independent ones, already facing ad revenue declines in an 
economic downturn, would be unable to offer package deals and 
volume discounts for advertising across multiple channels, the 
way that a merged Comcast and NBC could.
    These stand-alone stations would have less money to produce 
local news and hire staff. In order to remain competitive, 
these broadcasters would have to fire staff and reduce 
production of local news and information, or consolidate in 
order to compensate for market share loss to the merged 
company. This result could adversely affect local diversity as 
well.
    Finally, the merger would prompt other requests for similar 
mergers as other media players seek to keep pace with Comcast-
NBC's economies of scale, in the same manner that the lax local 
market agreement policies and the duopoly relaxation caused 
increased consolidation.
    Stand-alone stations, like minority-owned facilities, will 
have to weather yet another wave of consolidation, and as a 
result, will have to cut costs and may, as a result of doing 
so, reduce diversity. Thank you.
    [The prepared statement of Mr. Hammond follows:]

                 Prepared Statement of Allen S. Hammond

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Ms. Waters. Mr. Chairman, before you move to the next 
witness, we have Mr. Mike Davis, assemblyman, that is in the 
audience today, and I want to make sure I announce the correct 
caucus that you are chairing. It is the Entertainment and 
Sports Caucus of the California state assembly. Welcome, Mr. 
Davis. We are in your district. Thank you.
    Mr. Conyers. Our next witness it the Emmy award winning 
television producer Alex Nogales, who is president of the 
National Hispanic Media Coalition and has been tireless in 
promoting and advocating on behalf of the under-represented 
voices in the industry. Welcome.

TESTIMONY OF ALEX NOGALES, PRESIDENT AND CEO, NATIONAL HISPANIC 
                        MEDIA COALITION

    Mr. Nogales. Thank you very much, Congressman Conyers, and 
the rest of your congressmen and congresswomen, for allowing me 
to speak here today.
    I have a long version and a short version of my testimony.
    Mr. Conyers. Shorter is always better than longer.
    Mr. Nogales. I was going to say that you have the long 
version. I will read you the short version. The bottom line, 
you will see, is one and the same.
    NHMC has a long history of holding the media accountable to 
the public. We also have an intimate past with Comcast and NBC 
Universal.
    Congressmen, congresswomen, there are many reasons why 
distinguished individuals and organizations are against this 
joint venture, and NHMC's reasons in media transactions are 
already going to be based, first and foremost, on diversity 
concerns.
    Diversity in employment, governance, procurement, 
programming, minority media ownership, and philanthropy.
    NHMC is not against this joint venture, providing, and only 
providing, that strong verifiable and enforceable conditions 
are imposed and agreed to by Comcast. This is a gigantic deal, 
one of such enormous proportions, that it is sure to bring 
about more media consolidation.
    For the first time in our history, a cable giant, Comcast, 
will not only have dissemination of content but also own the 
content of a major film studio and television, broadcast and 
cable networks.
    NBC has a relatively fair record with the diversity 
initiatives I mentioned earlier. Comcast does not. In the year 
2000, the Multi-Ethnic Media Coalition signed diversity 
memorandums of understanding, MOUs, with ABC, NBC, CBS and Fox.
    The progress at the networks has been incremental but we 
are a long way from where we started. And now for Comcast. Its 
diversity record, as I said before, is spotty. NHMC's direct 
involvement with Comcast began in 2005, at the time of the 
Adelphia/Time Warner/Comcast license transfer.
    The National Latino Media Council, of which NHMC is a 
member, had a heated discussion with Comcast over its diversity 
record regarding Latinos. Shortly thereafter, Comcast released 
a report of its diversity numbers and efforts, promising, along 
the way, to include more Latinos in its employment ranks.
    The report said little, as it gave percentages, but failed 
to provide aggregate data, making it impossible to analyze 
diversity performance. In July 2005, NHMC filed a petition to 
deny the transfer of Adelphia Communications' licenses to 
Comcast. NHMC asked that the transfer be designated for 
hearings and have conditions imposed.
    In November of that same year, it was also announced that 
Comcast and the Hispanic Association on Corporate 
Responsibility, HACR, formed the Comprehensive Multi-Year 
Diversity Partnership. This brings us to the present.
    In December 2009, HACR released a corporate inclusion 
index, reporting the diversity performance of 34 Fortune 100 
companies, including Comcast. The index rates companies on a 
100 point scale based on four diversity criteria.
    Comcast received only 50 points out of one hundred. Only 
three companies score worse, one of which was General Electric.
    Comcast, as I indicated, does not have a great diversity 
record, but the past is the past, and we can only concentrate 
on the present and the future. This is a gigantic deal, and if 
Comcast wants our support, it must agree to conditions.
    NHMC is part of a six Latino organization team negotiating 
an MOU with Comcast. We are very close to agreeing on all the 
diversity initiatives. For NHMC, the most important initiative 
is media ownership.
    We are not asking, any of us, for a give-away. Latinos 
currently make up 15 percent of the U.S. population, and with 
the current census, that percentage is expected to rise to 17 
percent. African Americans are expected to hit 15, and the 
Asian Pacific Americans 5 percent. Combined, these three groups 
will make up from 35 to 37 percent of the national population.
    Allow me to give you some other numbers. In 2008, Comcast 
earned over $34.3 billion in revenue. NBC earned $16.9 billion. 
Comcast reaches one in four cable subscribers and its service 
territory covers 52 percent of all ethnic able households.
    NBC owns 25 local television stations, and the National 
Broadcast Network reaches 99 percent of U.S. homes with 
television sets. And I am not even referring to the affiliates. 
That is a couple of hundred more.
    In other words, an incredible amount of revenue that a 
combined Comcast-NBC Universal powerhouse will earn, if this 
deal is approved, will come from communities of color.
    It is therefore reasonable to expect that people of color 
should also share in the prosperity by having their own 
minority-owned and operated, or has been described here, have 
substantial ownership of those bodies, and that they should 
carry, Comcast should carry and distribute all of their cable 
systems, in all of their cable systems.
    We hope you agree. This body has a say in approving the 
joint venture. We ask that it insist on the diversity 
initiatives discussed. Thank you very much.
    [The prepared statement of Mr. Nogales follows:]

                   Prepared Statement of Alex Nogales

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Ms. Kathryn Galan has created the Latino 
Producers Academy, the Latino Writers Lab, the Latino Media 
Market, the latino Media resource Guide, and was a production 
vice president at Walt Disney Studios before she became the 
executive director of the National Association of Latino 
Independent producers. We welcome you.

  TESTIMONY OF KATHRYN F. GALAN, EXECUTIVE DIRECTOR, NATIONAL 
          ASSOCIATION OF LATINO INDEPENDENT PRODUCERS

    Ms. Galan. Thank you, Chairman Conyers, Representative 
Waters, and the other Members of the House Judiciary Committee. 
I appreciate your time and attention to this significant 
proposal, the greater concentration of power, influence and 
outreach, into a single media entity that would result from the 
merger of Comcast and NBC Universal.
    I am the executive director of the National Association of 
Latino Independent Producers, a national arts, nonprofit 
organization, that represents the community of Latino media 
professionals. For 11 years, NALIP has worked to promote the 
advancement, development and funding of Latino and Latino film 
and media arts in all genres.
    Our constituency is quite broad. It includes Latino and 
Latina producers, directors, writers, and crew, that create 
media content. Our community of professionals work in film, in 
public and commercial television, and in news media. They make 
feature films, television series and documentaries. They fill 
executive positions in media companies and they advocate for 
more representation of Latinos everywhere that you see media.
    A further conglomeration of power in the media industry 
concerns my constituency on two fronts. The first concern has 
been articulated here and arises from history. When the 
decision making and economic power of our business is more 
concentrated, the decrease in competition directly impacts 
content creators. It has led to fewer opportunities for Latino 
production companies, distributors, media entrepreneurs, 
station and channel owners and suppliers, as well as content 
producers and media artists.
    The past 15 years have been marked by a series of 
acquisitions, mergers and partnerships, that have greatly 
decreased the number of independent buyers or employers for 
creative content.
    This has also centralized the nexuses of opinion and 
information, putting greater power in the hands of few.
    The second concern, however, arises not from history but 
from the reality of the present. I am here today primarily to 
provide you with the information that is most troubling to the 
Latino media community, the lack of representation of Latinos 
across the broad spectrum of the media landscape.
    I would like to bring these facts to your attention because 
we believe, at NALIP, and throughout our constituency, that 
change will only come around these issues of diversity and 
representation in film, on television, and that the decision 
making levels of a media corporation like the proposed Comcast-
Universal NBC, if specific concrete, generous, and even 
aggressive commitments are made to hire and promote Latinos and 
other executives of color, to develop and produce the material 
of Latino producers, writers and directors, and to invest in 
the next generation of minority managers and artists, so that 
we can't sit here, 5 or 10 years from now, providing this 
Committee with the same disturbing statistics.
    I do not need to remind the Committee of the impact and 
influence of media. We look to creative content to educate and 
entertain, to acculturate and to serve as our ambassador to the 
world. The media industry is a very lucrative one, that employs 
a significant workforce, and one that generates considerable 
profits, not just in a year when product is produced, but its 
digital assets for many, many years in the future.
    A benchmark of a rich and thriving democracy is diverse and 
representative media. Latinos do represent 15 percent of the 
national population. However, when considered in terms of age 
demographics, Latinos represent 24 percent of all Americans 
under the age of 30, with a median age of 27.7, the most 
sought-after and valuable demographic to advertisers, as well 
as the most avid movie-goers.
    So today, nearly one out of every four Americans is a 
Latino in the most desirable age demographic for media 
companies. Yet the status of Latinos in the entertainment 
industry lags far behind that of other ethnic minority groups 
and other protected classes.
    At this time, there is only one Latino senior executive, 
that is to say, president, senior vice president, vice 
president, director or manager, in any of the major or minor/
major theatrical motion picture companies like Universal or 
Universal Focus, in the departments of development or 
production, marketing, publicity or acquisitions.
    There is stronger representation in the television 
industry, including CBS President Nina Tassler, and newly-
appointed NBC VP of drama development, Lourdes Diaz. But the 
programming of Latino-themed or Latino-created films in 
television is scant.
    In the past decade, all four major broadcast networks have 
made important strides, as Alex indicated, in increasing 
diversity. More actors of color are on the air, particularly as 
ensemble players.
    Progress has been slower in areas that, arguably, could 
have the great impact, writing and producing. White males have 
always dominated the entertainment industry, and that continues 
to be largely the case.
    The Directors Guild report, and other analyses of 
independent production, estimate that only 2 to 3 percent of 
directors in film and television are Latino. Only 3 to 5 
percent of writers, 5 to 7 percent of roles and characters are 
Latino.
    NALIP has advocated for more images by and about Latinos 
for 11 years, and gathered metrics alongside the guilds, 
unions, and other advocacy organizations. There are small 
relative improvements, but the Writers Guild of America, for 
example, notes in their 2009 Hollywood Writers Report, which 
was written, in part, by Dr. Hunt, that minority writing and 
earning percentages have been frozen since 1999.
    Lower-income consumers of media over-index as viewers of 
public and free broadcast media. Here, it is critical to have a 
broad, balanced representation of Latinos as well. 
Unfortunately, in recent years, fewer hours by producer, 
directors of color have made it to broadcast. There have also 
been fewer resources available in the sectors that support 
nonfiction programming, which include documentaries that 
reflect the communities and concerns of the Latino population, 
and has made it more difficult for independent Latino and 
native producers to develop and deliver new work.
    According to a 2009 report on women and minorities by the 
Corporation for Public Broadcasting, where the vast majority of 
U.S. documentaries receive funding and broadcast, under 19 
percent of their programs feature minorities, any minorities, 
down from 25 percent 10 years ago, and less than 7 percent of 
minority program is seen in primetime.
    As Comcast and NBC Universal ask to take an even greater 
share of the media real estate, we ask that they play an even 
stronger role in the diversity efforts of the entertainment 
industry.
    The long-term struggle for accurate portrayals and economic 
inclusion of people of color is an initiative with far-reaching 
social and cultural consequences. Given the significant 
deficiencies and the representation of racial minorities in 
their employment ranks, including their content creators and 
suppliers, we ask that Comcast, NBC Universal articulate a plan 
to address this plan before they receive the community support 
in moving forward. Thank you.
                               __________

    Mr. Conyers. Dr. Darnell Hunt received his doctorate in 
sociology from UCLA. He has written a number of books on the 
subjects relating to media, race and cultural studies, and we 
are proud to have you here today.

     TESTIMONY OF DARNELL M. HUNT, PROFESSOR OF SOCIOLOGY, 
           UNIVERSITY OF CALIFORNIA, LOS ANGELES, CA

    Mr. Hunt. Thank you, Chairman Conyers, Representative 
Waters, and other Members of the Committee.
    I am a sociologist who was invited to comment on the state 
of diversity in the Hollywood industry as background for 
today's discussion about the proposed merger.
    For nearly 20 years, I have worked to better understand the 
state of diversity in the Hollywood entertainment industry. I 
have collaborated with both industry insiders, such as the WGA, 
the Writers Guild of America, and the Screen Actors Guild, and 
community advocates, such as the NAACP, to generate reports on 
the Hollywood industry aimed at documenting patterns in 
minority employment, access and earnings.
    These experiences, over nearly two decades, have given me 
firsthand knowledge about the state of diversity in the 
Hollywood creative community. In a world where neither race nor 
gender matters, we would observe a Hollywood industry where 
minorities and women participate at rates comparable to their 
share of the general population.
    Unfortunately, we do not live in such a world. Our world is 
one in which race and gender continue to play profound roles in 
the choices people make. These categories tend to define the 
risks we are willing to take to pursue our dreams. They also 
motivate our tendency to feel more comfortable working with 
those who seem similar to ourselves.
    These realities are particularly salient in the Hollywood 
industry. It is a highly competitive industry, dependent upon 
creative talent, freedom of expression, and more than a fair 
share of good luck. It is also a profoundly insular industry, 
that White males have traditionally dominated, where employment 
opportunities rest squarely on personal networks largely 
defined by race and gender.
    Indeed, if we consider the latest available statistics, we 
see that we have made little progress, if any, on the Hollywood 
diversity front, despite the continuing diversification of the 
American population.
    In 2007, minorities accounted for about a third of the 
American population, or 34 percent, but only 9 percent of its 
employed television writers and 6 percent of its employed film 
writers. That is all minorities combined. In other words, 
minorities were under-represented among employed television and 
film writers by factors of nearly four and six, respectively.
    Meanwhile, women writers continue to lag behind their male 
counterparts, accounting for only about 28 percent of employed 
television writers and 18 percent of employed film writers, 
under-representation by factors of nearly two and three, 
respectively.
    Now although there is relatively little research available 
regarding diversity among Hollywood directors, a recent study 
by the Directors Guild of America found that White males, who, 
as a group, comprise only about 33 percent of the U.S. 
population, directed 80 percent of the episodes in the top 40 
television shows during the 2004-2005 season.
    An anecdotal observation suggests the state of diversity 
within the directing corps is even more troubling in film.
    While at first glance, the numbers appear to be better in 
front of the camera, when we look more closely, we see a 
similar pattern of under-employment and exclusion among 
minority actors.
    That is, although the White share of all television and 
theatrical roles in 2008, 72.5 percent, was only marginally 
greater than the White share of the population, 67 percent, 
when we look at the most important leading roles, we see that 
White dominance was more pronounced.
    Here, Whites accounted for 76 percent of the roles and 
minorities combined for only 24 percent. And these figures are 
consistent with other studies, noting that White characters 
tend to dominate, not only in terms of the on-screen 
population, but also in terms of time on the screen.
    Minority characters, by contrast, are typically relegated 
to being the coworkers and/or friends of the more prominent 
White characters, the characters around whom stories usually 
revolve.
    In short, my experience has convinced me that business as 
usual in the industry is wholly inadequate for addressing the 
stagnation in Hollywood diversity that we see today.
    A new paradigm is needed that understands diversity as a 
public good, and a sure bet for the bottom line. This new 
paradigm would move beyond symbolic pronouncements and token 
gestures. It would establish realistic goals that the industry 
can agree upon, reasonable timetables, and effective mechanisms 
for an industry truly committed to catching up with a changing 
America. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hunt follows:]

                 Prepared Statement of Darnell M. Hunt

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               __________
    Mr. Conyers. Frank Washington, Cornell University graduate. 
Yale University Law School. Carter administration, with 
President Carter administration, with the Domestic Policy 
Council. Later became deputy chief of the Federal 
Communications Commission. He did not work with Kevin Martin, 
who is present here at this hearing, and later became vice 
president of Time Mirror Company. He also served as president 
and CEO of System Integrators, here, in California. Welcome.

TESTIMONY OF FRANK WASHINGTON, CHAIRMAN AND CEO, TOWER OF BABEL 
                              LLC

    Mr. Frank Washington. Thank you, Mr. Chairman, 
Representative Waters, other Members of the Committee. I am 
here today to relate my experience with Comcast, what it 
portends for program diversity and service to minority 
audiences, and, as a consequence, why I support the Comcast-GE 
joint venture.
    I have had a long history with minority participation in 
media. This includes my invention of the minority tax 
certificate while in the Carter White House and at the Federal 
Communications Commission. The certificate did more to foster 
minority ownership of broadcast and cable media than anything 
else before or since.
    My focus today, however, is on my experience with Comcast 
in the role of founder and CEO of an ethnic language television 
service called Crossings TV. Crossings reaches 2 million ethnic 
language people in the Central Valley of California and New 
York City on Time Warner cable.
    The inspiration for Crossings came from Comcast. In 2003, 
the senior Comcast executive then overseeing Northern 
California, pointed out that there was a large Russian language 
population in Sacramento for whom no local, in-language TV 
services were available.
    I separately determined that there was a similar lack of 
service to a variety of other, mostly Asian language groups, 
including Hmong, Lao, Vietnamese, Chinese, South Asian and 
Filipino. At the time, I was also a part-owner of a full power 
television station in Seattle that offered a multi-language 
service.
    Thus I knew that the ethnic populations in the immediate 
Sacramento area were not large enough, in terms of population 
or potential ad revenue, to support the acquisition of a full 
power TV station, even if one were available.
    So I devised a different approach, based upon buying a 
lower power TV station at a small fraction of the cost. To 
compensate for the much lower over-the-air coverage area, I 
sought carriage on the Comcast-owned cable system in 
Sacramento. But I faced a challenge. There was, and is, no 
Government requirement for low power TV stations to be carried 
by cable.
    A further complication was that a private equity firm, 
interested in investing in my venture, would only do so if we 
had cable carriage. Quite simply, without Comcast, there would 
have been no Crossings TV.
    In 2004, we approached Comcast in Sacramento, which by then 
was under a different executive from the one who gave me the 
idea. He quickly grasped what we were proposing and said he 
wanted to carry out service throughout the Sacramento area. 
This would give us several times the coverage of our low power 
over-the-air signal.
    My mid 2005, we had a signed agreement. What is more, we 
approached Comcast a number of months later about also being 
carried in Stockton, near Sacramento. To our pleasure, they not 
only agreed but suggested that Crossings also be distributed 
throughout the entire Central Valley, including Fresno, Chico, 
Modesto, Stockton, Yuba City, Marysville, as well as 
Sacramento.
    We had been on Comcast in these areas since 2006. We are 
currently engaged in discussions with Comcast regarding other 
markets.
    The question is why. Why did Comcast do this? Comcast is 
known for its fair but tough-minded business approach. Based on 
this, we came to the table with a well-thought-out business 
plan and an executive team with demonstrable ability to execute 
it. We made the case that much of the Comcast growth 
opportunity, in its mostly urban markets, was likely to come 
from minority audiences.
    Comcast decided to carry Crossings because it meant a 
unique need and because it was based on a sound business 
premise. Crossings has unique local programming that draws 
ethnic subscribers who might sign up for ethnic language pay 
tiers.
    Comcast has made diverse programming a priority because it 
sees the value in growing its business. This is Adam Smith's 
invisible hand operating at its best, motivating a large, well-
run company, to cater to under-served audiences because it 
benefits Comcast shareholders. This is what America is all 
about.
    That said, Comcast should be acknowledged for realizing the 
power and the promise of this country's ethnic communities. Not 
every media company does.
    My experience with the minority tax certificate and the 
absence of minority-owned media alternatives suggests that too 
often, companies either willfully ignore, or incompetently 
overlook the business opportunity represented by this country's 
minorities. Comcast appears to be a strong exception in this 
regard.
    All this suggests that Comcast and NBCU together will 
create a media company more sensitive to the needs and 
interests of minorities than most. That is why I support their 
joint venture. Thank you.
    [The prepared statement of Mr. Washington follows:]

                 Prepared Statement of Frank Washington

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Waters. I would like to thank the Chairman for giving 
me the opportunity to introduce a woman I greatly admire. Ms. 
Suzanne de Passe, the CEO of the de Passe Jones Entertainment, 
and the first female African American to be nominated for an 
Academy Award for screen writing. Ms. de Passe was a force that 
signed, developed, and coached the Jackson Five, among other 
leading Motown recording artists.
    She was also the executive producer for various ministries, 
including Lonesome Dove, Buffalo Girls, Streets of Laredo, and 
Dead Man's Walk. Ms. de Passe's production of Motown 25, and 
Motown Returns To The Apollo, both won her Emmy awards. 
Additionally, in 1990, Ms. de Passe was inducted into the Black 
Film Makers Hall of Fame.
    Additionally, Ms. de Passe and her partner, Madison Jones, 
are producing a feature length film on Dr. Martin Luther King 
with Dreamworks and Steven Spielberg. I wish I could go into 
all of her credits. I cannot possibly do that. We don't have 
enough time. Let me just conclude by saying she is one of the 
most respected, the most honored, in this business, and we are 
so delighted that she joins us today with testimony. Welcome, 
Suzanne de Passe.

           TESTIMONY OF SUZANNE de PASSE, CO-CHAIR, 
                  de PASSE JONES ENTERTAINMENT

    Ms. de Passe. Thank you. Thank you very much, Congresswoman 
Waters, and Chairman Conyers, Members of the Judiciary 
Committee. I am so pleased to have the opportunity to be here 
today regarding the proposed merger of NBC Universal and 
Comcast.
    My entrance into the Hollywood entertainment industry was 
unique. I had the benefit of being on the executive staff of 
Mr. Barry Gordy, founder and chairman of Motown records. It was 
under the protective umbrella provided by Mr. Gordy and Motown, 
that I was able to gain my sea legs in what is commonly 
referred to as the business.
    When I moved into television and film as president of 
Motown Productions, I realized that I was, indeed, in a very 
unique position.
    I also began to realize that the barrier to entry into 
mainstream Hollywood was daunting, at best, for everyone, and 
exceptionally so for minorities.
    When I speak of minorities, I am referring to African 
Americans, Latinos, Asians, Native Americans, and women, among 
others. However, my professional experience comes from general 
market and African American content. So those are the areas I 
will address today.
    Also, while there are myriad issues with respect to this 
merger, my focus today will be on how the merger might affect 
the African American entertainment and media professional, 
especially the creative production community.
    Over the years, I have witnessed the consolidation of 
content and distribution, and entertainment and media, has done 
to significantly slow down and diminish opportunities for 
minority professionals, rather than accelerate and increase 
them. What has happened to the likes of the Cosby Show, Fresh 
Prince of Bel Air, the Jamie Fox Show, In Living Color, Living 
Single, Girlfriends, Sister Sister, Moesha, A Different world, 
the Jeffersons, Martin, Soul Food, and Sanford & Son?
    What has happened? We have gone backwards. The question is 
why. With very few exceptions, the same networks that broadcast 
those shows now only seem to offer a minority cast member, here 
and there. Where is the business? Granted, the economics of the 
television industry have changed dramatically over the years.
    Much less expensive reality programming has taken the place 
of many scripted shows, which now appear to be coming back. 
However, the most recent network announcements for the fall, 
for the coming fall season, have once again been disappointing 
with respect to minority involvement, both in front of and 
behind the camera.
    Today, when we walk into a movie studio, network or cable 
meeting to pitch a project, we already know that we are going 
to be required to give up all ownership in exchange for reduced 
fees, and the likely possibility of being fired off the 
project, without cause, at the discretion of the studio or 
network.
    In other words, we bring a hit project, retain no 
ownership, lose control of the intellectual property, get paid 
less, likely generate significant revenue for the studio or 
network, and end up getting bounced out the door, with no 
further participation in the ongoing success.
    In business, the greatest decision making factor is the 
power to say yes. In our business, we call that greenlight 
power. At present, greenlight authority in mainstream 
entertainment rests with a rarified group of executives. They 
have the power to say yes, in television and film.
    Despite our collective experience and success, Black 
executives have never had greenlight power at a major studio or 
network. Most of us have had such difficulty getting to yes, 
that we have had to make the word no our vitamin.
    Only the most dedicated, resilient and determined 
individuals are cut out for this relentless dance of rejection. 
All professionals in our business share the experience of 
rejection, regardless of color. But just imagine what it must 
be like for the minorities in Hollywood, who are almost always 
relegated to minority theme content, which is now almost 
nonexistent, a strong incentive to grow African American media 
ownership.
    And it must be noted that we are not just skilled at 
creating and producing Black or minority programs. In my own 
case, an epic 8 hour miniseries about the Old West, entitled 
Lonesome Dove, that I found, nurtured and produced, was 
nominated for 18 Emmys, won seven, a Golden Globe, and Peabody 
Award. And yet the number one question from the press was: What 
is a Black woman doing producing a Western?
    I would be willing to bet that no one ever asked my 
friends, Marcy Carsey or Tom Warner, what they were doing 
producing the Cosby Show. It has been proven, time and time 
again, that doing business with minorities is good business.
    While this proposed merger of Comcast and NBC Universal 
represents for many yet another door closing, it also presents 
the opportunity for doors to open. This powerful combination of 
content and distribution can further raise the barrier to 
minority participation, or become a bridge to an historic new 
opportunity for inclusion.
    Comcast has both the financial and distribution resources 
to use this opportunity to create meaningful and institutional 
change in a system that has proven it will not do so on its 
own. Hollywood is a place of dreams, and I believe that all of 
Hollywood will embrace a solution that will give minority 
executives, producers, writers, directors, and other 
professionals the opportunity to make their dreams come true, 
while they positively impact the bottom line.
    Simply said, we need greenlight power, the power to say 
yes. I was invited here today to give my opinion on the NBC-
Comcast merger, and if I think it is a positive thing for 
minorities. My answer today is this can be a historic moment 
for minorities, but only if Comcast decides to take the 
leadership position among all other media giants, and make 
meaningful, lasting, comprehensive and institutional change. 
Thank you.
    [The prepared statement of Ms. de Passe follows:]

                 Prepared Statement of Suzanne de Passe

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Conyers. Judge Louie Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman. If I might ask, 
normally, we have the 5 minute rule, and obviously the lights 
wasn't working. I think there was one speaker out of twelve 
that stayed within 5 minutes. Just from a structural 
standpoint, since we have 12 witnesses, and I'm asking, would 
it be possible, maybe, to have us each have 10 minutes, since 
there are so many witnesses?
    Mr. Conyers. Judge Gohmert, you can have as much time as 
you desire.
    Mr. Gohmert. I think everybody would storm out, if that 
happened, but anyway, it is about opportunities, and that would 
forestall too many, I am afraid.
    I really appreciate the witnesses' perspectives and input, 
and it was pointed out to me, earlier, that I am the minority 
on this panel today, and so I appreciate your indulgence with 
me.
    But I am really struggling with this, and my friend from 
Tennessee brought up a public option. Unfortunately, the last 
Administration, and this Administration, both have bought into 
this thing, that some entities can get too big to fail, and my 
feeling was, if something is too big to fail, we need to let it 
fail so it won't ever be that too big to fail again, and we 
should have done that with AIG, and Goldman Sachs, and whoever. 
Let them reorganize.
    And so I want to be careful, as we do what we should be 
doing, not picking winners and losers, but making sure that 
there is opportunity out there, and that people are playing by 
the rules, and playing fair, rather than us get involved as a 
Government, telling, you know, people what they have to do.
    And so I really have been struck by some of the interesting 
observations. And one of the things, in going through the 
material in preparation for the hearing, I noted that there are 
some who would like to require NBC to divest its 32 percent 
stake in Hulu-you know, it is an Internet video provider--
within 1 year of acquiring the network, and I am doing what we 
were trained as lawyers not to do, not to ask a question you 
don't know the answer to.
    But I really am curious: What would be the purpose of 
requiring NBC to divest of the 32 percent ownership in Hulu? 
For anyone that might have an answer.
    Audience Member. Competition.
    Mr. Gohmert. Somebody in the audience was answering. And I 
realize we want competition, and that's one of the concerns I 
think all of us have, is making sure there is adequate 
competition. Anybody on the panel have a comment on this?
    Mr. Liggins. I have got a comment.
    Mr. Gohmert. Yes, sir.
    Mr. Liggins. I mean, I think that Hulu was actually brought 
together by, you know, NBC and a couple other big content 
providers, to actually compete with the Internet and YouTube. 
So Hulu actually is the competition, if you will, because the 
fact that you have Google, YouTube, the Internet, creates a 
wealth of opportunities to zip video all around the Internet 
and for people to get it in various forms, whether they pay for 
some of it or they don't.
    So Hulu, in my view, is actually the new start-up 
competitive entrant, and if you take 32 percent out of that, 
what you then now have is a service that is less competitive 
with YouTube, because they don't have the NBC Universal 
content. And if you want a competitor to Google and YouTube, 
you have to, I think, look at the consortium that Hulu's put 
together and leave it intact, and let it compete, because, you 
know, Google, YouTube, is considerably more massive in terms of 
its reach and scale than anything Hulu could ever be.
    Mr. Gohmert. And, you know, I've gone to Hulu some, in 
looking for things in the past, and it does seem to be an 
alternative, but I legitimately was not sure what effect that 
would have to force NBC out of that.
    And, you know, from my standpoint, wanting competition, I 
have wondered, well, why don't we just let, you know, the 
American people decide what they like the best, and what they 
don't, and that dictates, without the Government coming in and 
saying you have to have so many with this color faces in this 
show, and this color faces in ownership, and just let the 
market decide what they want to see.
    And, you know, as a kid, I think of my first six LPs. Three 
of them were Bill Cosby. I mean, the guy was fabulous. I didn't 
recall him having a interest in buying NBC. Man, would that 
have been wonderful.
    But I note that Comcast had mentioned, and CEO Brian 
Roberts had mentioned that customers will be able to program 
their Comcast set-top boxes remotely, using the latest gadget, 
the Apple iPad, and I just got one for my wife and she 
absolutely loves it.
    But I am wondering, that raises another issue, and I 
realize we don't have a witness from Comcast, but I'm curious, 
as we are looking at these exclusivity relationships, is there 
one developing there between Comcast and Apple, that may make 
it an even bigger entity?
    Ms. Madison. Mr. Gohmert.
    Mr. Gohmert. Yes.
    Ms. Madison. Maybe I can address that.
    Mr. Gohmert. Yes. Please.
    Ms. Madison. I am actually speaking on behalf of----
    Mr. Gohmert. Right. NBC.
    Ms. Madison. NBC Universal, and the new NBC Universal, post 
the deal close. We are in the business of competing with not 
only other networks and broadcasters, but also any content 
creator out there, whether that content creator be a Hulu, or 
be Google, or be iPad. So for us, the important aspect of this 
dynamic and competitive marketplace is that we are trying to 
get our content out in front of as many people as possible.
    So for us, as NBC Universal, we are interested in getting 
into business with any content creators who are doing to 
develop, deliver to us quality products.
    Mr. Gohmert. And I appreciate that. But is there any 
exclusivity in the agreement----
    Ms. Madison. There is none.
    Mr. Gohmert [continuing]. Without Apple? None; okay.
    Ms. Madison. There is none.
    Mr. Gohmert. But one of the things that my eyes have been 
opened to is I want to see people make their own choices, let 
them, you know, decide which programs they want to watch, and 
of course that dictates which advertisers pay the most for.
    One of the things I have heard here, today, that I wasn't 
familiar with, not being in entertainment, is whether or not 
the door is open to those groups that have this fantastic show, 
that never makes it to the air, so we never find out that the 
public would have loved it, everybody would have watched, if 
the door had been open.
    And so that seems to me to be the area we really need to 
concentrate, and I am not sure how we go about doing that. And 
one of the things I appreciate about you, Chairman, is we've 
done, done more oversight hearings that I recall in my first 2 
years, and that is what we need to be doing, rather than 
getting involved and actually being a participant.
    But I would be open to any suggestions about how the 
Government, in that overseeing role, can make sure that the 
opportunities are there, so that people can make the best 
choices, and I would be open to anybody's comment now, or in 
the future, if you have further thoughts, what we could do to 
make sure, just the opportunity to come sell a show that 
America could have the chance to enjoy.
    Mr. Nogales. This is a very, very lucrative business. 
Nobody wants to let go of it. So you fire, hire, your 
boyfriends, your girlfriends, and so forth. And if you see the 
incestuous nature of the business, you see that that's 
precisely the case. The prejudicial treatment of people of 
color in Hollywood is legendary. Nobody wants to share in the 
wealth. Nobody wants to know what the other person has to say, 
if you are a minority.
    Arizona didn't just happen. It happened because we are 
excluded, number one, and--bear with me.
    Mr. Gohmert. I don't want to get into the Arizona law, 
because for people that read it, they say it is not as 
stringent as the Federal law. But, see, I guess that is why I 
was surprised, and, and it makes sense, about the closed doors 
being the problem, is because--exactly what you said.
    Since you know people want to make money, then why wouldn't 
they put on the best show they possibly could, and then you 
find out what you're talking about, there's so many faces that 
haven't been allowed through the door to make those 
presentations, and that is what I am wanting to get at, is how 
we go about making sure that the opportunities are there, not 
that you get your show on but that you have the opportunity.
    And that is what I really want to try to figure out, how 
we----
    Mr. Nogales. It is not going to happen without conditions.
    Mr. Gohmert. Without what?
    Mr. Nogales. Conditions.
    Mr. Gohmert. Yeah. Okay. What kind of conditions?
    Mr. Nogales. In a big acquisition like this, diversity, 
diversity conditions. NBC didn't get to where they are just 
because. It would have gone on the merry road and never hired 
people of color, if it hadn't been for the MOU that was signed 
10 years ago.
    Now we are not solving the problem here, but at least you 
have a lot more people in place that are being trained, that 
are being mentored, who will pull other people of color in. 
Because our stories are wonderful. but you can't get them in 
front of people that don't respond to them.
    Mr. Gohmert. You said an incestuous relationship among 
those involved.
    Mr. Nogales. Well, it is also something else. You know, 
they have a lot in common. We want to hire those individuals 
that are like us. It is very natural. The problem is that when 
you do that, you have exclusion, and the moment you have 
exclusion, the rest of us don't get the opt to get in.
    We are just as talented, we are just as wonderful story 
tellers as anybody else. But if you don't have the opportunity, 
you can't put it on the air.
    Mr. Stanley Washington. Judge Gohmert, can I make a comment 
as well.
    Mr. Gohmert. Mr. Washington.
    Mr. Stanley Washington. Thank you. I look to add to Alex's 
comments, our good friends at the Hispanic Media Coalition. You 
know, the primary challenge today, in the industry, is that it 
is not a free market environment. The cable industry, and the 
broadcast industries, are really predicated on a few 
individuals who are making all of the decisions.
    Mr. Gohmert. Yeah. That is what we are hearing, and that is 
why I am asking, how do you----
    Mr. Stanley Washington. And I think that Alex is absolutely 
correct. You know, at the end of the day, someone has to, the 
FCC has to step in and put very specific ownership conditions 
on this merger.
    I mean, if you ask the question, the fundamental question, 
Does the Comcast-NBCU merger further the FCC's goal for African 
American and diversity ownership, the answer is no. There are 
no specific conditions, there is no specific desire that 
Comcast has indicated, put, put that in place. It was stated 
earlier, that the, that our coalition, you know, is challenging 
TV One because they are not Black enough.
    The truth of the matter is the issue isn't if Alfred's 
company is Black enough. It is not independent enough. You 
know, the challenge is that Comcast owns a part of TV One.
    Mr. Gohmert. But you don't want to be prejudiced against 
Alfred's company just because you don't think he is Black 
enough.
    Mr. Stanley Washington. No, you know, actually, actually, 
actually--actually, I must admit, I have had a great 
conversation with Alex, other than I, other than the fact I was 
dismayed, that I found out he is a Celtics fan. It has been 
good. It has been a good discussion.
    But, you know, I think, you know, there have been a number 
of people, witnesses, that have been indicating that Comcast 
has been doing great by them. They have been doing a wonderful 
job advancing our business.
    Well, that is because they are in business with Comcast. 
You know, the statement was made earlier, that there is no one 
from Comcast testifying today. Actually, there are a number of 
people from Comcast testifying today, and they, and they are 
as, as effectively---- [Applause.]
    And they are as effectively as they can, trying to 
communicate that Comcast has been a good citizen. Mr. Cohen 
asked: How does Comcast rate in reference to the rest a the 
industry? Well, it was suggested by Mr. Griffin that they are 
not the worst. Well, I think it is the opposite. Of course they 
are the worst, because they are the biggest, because they are 
the market leader, because they have a responsibility to the 
industry to set the tone and the direction of where the entire 
industry should go. At----
    Mr. Gohmert. Well, but if there are people who are 
minorities, working with Comcast, wouldn't you expect them to 
come forward?
    Mr. Stanley Washington. Well, here is a good question.
    Mr. Gohmert. I mean, I am not sure if I like this deal or 
not, but I certainly would expect, that if Comcast has 
minorities, they are going to step forward and say don't mess 
over my company, it is doing fine by me. I mean----
    Ms. Madison. Mr. Gohmert, may I give you some facts?
    Mr. Stanley Washington. Well, let me----
    Ms. Madison. May I give you some facts?
    Mr. Stanley Washington. Let me just make one comment.
    Mr. Gohmert. Well, I have used more than my time and the 
Chairman has been very----
    Mr. Stanley Washington. If I can make one more comment.
    Mr. Gohmert. Sure.
    Mr. Stanley Washington. I think the question is, we have 
heard again from a number of individuals that have said our 
company is doing well, but what happened to the Black Family 
Channel, which had been in business for 6 years, 25 million 
subscribers? And when they decided that they would not give 
Comcast distribution, Comcast turned around and did a deal with 
our, our good friend over here, TV One, and systematically 
started to push them out of the business.
    And they did that again because they had a vested interest, 
from a competitive, a anti-competitive, in the success of TV 
one over the Black Family Channel.
    Mr. Gohmert. Yeah, that----
    Mr. Stanley Washington. What I am suggesting is that there 
is a pattern, an ongoing pattern of predatory behavior that is 
based on their dominance, their desire to control and own, as 
they move forward.
    And when we hear that there is not an ability to greenlight 
projects, that is because at the end of the day, we don't have 
the control, the ownership, on our own, to push those projects 
through.
    Mr. Gohmert. I just want to make sure, if there are other--
I don't know how there could be another Bill Cosby, but if 
there are other Cosby shows out there, where you have a man and 
a woman that are married, they are smart, their kids love them, 
they love the kids--man, I would like to see those again.
    Mr. Stanley Washington. I love Ms. de----
    Ms. Madison. It is premiering on NBC this fall.
    Mr. Stanley Washington. I love Ms. de Passe's comments, 
because Bill Cosby owned 42 percent of his show.
    Mr. Gohmert. Yeah.
    Mr. Stanley Washington. And that is what is missing in 
industry. You know, the question was asked, what happened to 
the Jeffersons? What happened to Different World?
    Mr. Gohmert. Yeah; right.
    Mr. Stanley Washington. You know where they are? They are 
on TV One. That is what happened to them.
    Mr. Liggins. And just a little color on the whole Black 
Family Channel situation. One, I know a lot about it, because 
Black Family Channel launched before TV One did. They actually 
did have Comcast distribution in Price George's County, and 
Washington, other, other, a number of other places. Willie Gary 
is a dear friend of our family's. I looked at doing things with 
him, with his channel, a number of times, as I was trying to 
get in the door.
    The ultimate demise of the Black Family Channel, in my 
view, was it wasn't set up for success as a cable network from 
the very beginning that it was put together.
    We spent $130 million launching TV One. $130 million. I put 
up seventy-six of it. Willie and his partners were funding this 
out of their pocket. They have a lot of money but unless you're 
funding it with a big public company, bankroll, as opposed to 
your own personal bankroll, you run out of patience when things 
don't go as fast as you think they are.
    It took us 5\1/2\ years to make money, and we went through 
almost all that hundred and thirty. So, in the end, they did 
actually have distribution. They just couldn't outrun the 
advertising catching up, the ratings catching up. It takes more 
than $60 million to put one a these cable networks together.
    We had $130 million and a whole media platform with radio 
stations and Internet sites supporting it, and ultimately, that 
was the difference between our success and their failure.
    And ultimately, what happened with the Black Family Channel 
is they ended up combining it with the Gospel Music Network, 
and the Gospel Music Network wanted Black Family Channel's 
distribution. So they had distribution. They just didn't have a 
business model set up for them to succeed.
    Mr. Stanley Washington. What the Black Family Channel 
couldn't outrun was Comcast's desire to push them out of the 
business. As a shareholder in Radio One, my question to Alfred 
would be, why would they spend $75 million, 40 percent of TV 
One, and allow Comcast to spend $10 million for 33 percent, 
unless the goal was to expand them through distribution? The 
reality is when the Black Family Channel decided not to allow 
Comcast to own, to have equity in their channel, the support 
started to wane.
    Now all the other comments about how things are run behind 
the scenes, the truth of the matter is the revenue is so 
significant in channel ownership--right? TV One is generating 
somewhere around 6 cents per subscriber on 25 million 
subscribers, per month.
    Where the Black Family Channel, when they were asked to 
come on to the platform, as Alfred has indicated, the Black 
Family Channel was told you're going to have to pay a launch 
fee of $1.50 per subscriber to come, to come on our platform.
    The truth of the matter is the environment, because there 
is not true free market corrective action program--you know, 
all we are really arguing for is the ability to compete fairly 
on a level playing field.
    Mr. Gohmert. That is what I would like to see.
    Mr. Stanley Washington. Right. And at the end of the day, 
again, I applaud--this is, this is--this discussion, you know, 
Alfred and I disagree on their level of independence; right? 
Them being a wholly-owned African American channel. I will 
concede it.
    The issue is, even if they count, we have one African 
American wholly-owned channel in the entire industry. And it is 
appalling.
    Ms. Madison. And Comcast does recognize that this is an 
industry-wide issue. This is not just limited to Comcast.
    Mr. Stanley Washington. But Comcast has the most 
subscribers.
    Ms. Madison. All right. But let me just state some facts.
    Mr. Stanley Washington. I apologize. Go ahead, Paula.
    Ms. Madison. Okay. So the facts are that as you probably 
have seen, hopefully in the commitments, that the NBC 
Universal-Comcast group have put together, includes that 
beginning next year, there would be the launch, annually, of 
minority-owned channels. So exactly what you are asking for--or 
I should say not exactly, because the threshold that you have 
set for 100 percent African American owned, means that there 
can't be any equity partners, and that is just not the way 
business is done today.
    So there would have to be investors. You would have to go 
out and seek money, so that what happened to Willie Gary, and 
others, where they ran out of their own money, coming out of 
their own pockets, does not happen.
    So in Comcast's commitments, beginning in 2011, every year, 
for the next 3 years, there would be two independently-owned 
stations launched, cable networks launched, not owned by 
Comcast, not having Comcast investments, but independently 
owned.
    The other thing that I would like to make sure that we are 
talking about, cause on the one hand we were talking about 
ownership. On the other hand we were talking about creative 
executives.
    And inside the world of creative executives, every one of 
us in this room, including some of my fellow folks on this 
panel, knows that yes, it is an industry-wide problem. Suzanne 
de Passe is accurate. Greenlighting, and having th ability in 
the hands of diverse people to greenlight, has been a problem, 
historically, in this, in this industry. Again, the commitments 
that Comcast has made, and NBC Universal has made, means that 
we have made specific steps that are cited in those commitments 
as to how we will grow and groom, and put into place 
presidents, executive vice presidents, senior vice presidents, 
who are running divisions, and some of the folks, frankly, who 
are with NBC Universal and Telemundo are present today.
    The last point I would like to make is that when we talked 
about executives, Telemundo, which NBC bought in the mid 
2000's, presently has 85 percent of its senior executives, its 
executive teams are Latino.
    When we were first bought Telemundo, about a third were 
Latino. So we have increased. The other thing I would say is 
that NBC Universal's board of directors presently is comprised 
of 15 people. Four of us are racially diverse and five of us 
are female.
    Mr. Griffin. Mr. Chairman, I would like to comment on that, 
if possible. I mean, I want to make just two points. And I know 
that Congresswoman Waters, and Conyers, understand this. Radio 
One is a three decades-old project. That was political, social, 
economic, cultural. It wasn't just born overnight. The idea 
that, you know, they showed up and then a baseball player, a 
lawyer, a singer, and a boxer, decide they want to start a 
cable channel. You cannot compare those two things.
    It was just better set up to be successful. And the idea 
that you can't study successes, I think the idea is we had a 
successful relationship with Comcast, and we are still alive 
and relevant in the industry to talk about it. The idea that 
you can't study successes is ridiculous.
    Now to your point about what the core problem in the 
industry is, and, you know, you are a Texas guy; right? Right?
    Mr. Gohmert. I know I sound like I am from New York. But 
yeah, I am from Texas.
    Mr. Griffin. Well, you can probably get this. My family, 
from Washington County, I think you probably get this. Two 
farmers raised a 100 head a cattle. One goes down to the 
slaughterhouse. One gets paid for a 100 head a cattle. Another 
gets paid for 50 head a cattle. That is the entertainment 
business. That is why these companies are not successful.
    We can have great shows, we can generate viewers, but at 
the end of the day, when we go to the advertiser, we're not 
getting paid, dollar for dollar, for every impression that we 
generate. That is the root of the problem.
    You know, we could debate all day about----
    Mr. Gohmert. So how do we address that? That is----
    Mr. Stanley Washington. Well, let me just----
    Mr. Gohmert. Well, let Mr. Griffin finish.
    Mr. Griffin. Well, I think the way that you address it, and 
some groups have tried to address it outside of Government. You 
know, there is not a natural regulatory home for the 
advertising industry in media spending.
    And I think that kind a has been falling in the gray areas, 
and when people see big media, they hope on the bogeyman of the 
distributor, or they hop on Hollywood, not enough Black films, 
and then they don't focus on where the money is, which is why 
Willie Sutton said he robbed banks, cause that is where the 
money is. All these companies want to get money from 
advertisers, and you have to hold hearings and pull the 
advertisers in front. You can lay out Mr. Washington's 
proposal.
    You could say if Comcast agreed to 25 African American 
channels, which, among the top 100 advertisers, who--how much 
would you commit to advertise on each of these channels for 
African Americans? Who will sign up? If--if the advertisers 
say, hey, I will sign up. Coca Cola, Johnson & Johnson say, 
hey, we will commit 10-, 15, $20 million to that. Now your 
problem is with Comcast.
    If they say, well, come back when the channels are 
launched, I have to see the programming, I need to know the 
distribution, I need to know who is in the cast, and it is 
contingent upon a bunch of other things, then you realize your 
problem is with the advertiser.
    I submit to you, based on, based on my time and experience, 
that what you will find is no advertiser will commit to any of 
these channels. Perhaps, you know, he wants Comcast to commit 
to 25 channels.
    One advertiser who says, in a letter, who will submit it, 
Comcast-not to get in a battle of letters--but they have got 
hundreds of letters. One advertiser, the right one, who says, 
hey, you launch that, we are advertising----
    Mr. Stanley Washington. What I would like to just comment, 
on top of this is--and again, I apologize, cause I'm not from 
Texas, I am from Los Angeles----
    Mr. Gohmert. All right.
    Mr. Stanley Washington. And the only thing I know about 
cows is why buy one when you can get the milk free? And that is 
part of the channels that we have in this industry.
    Mr. Griffin. That is good.
    Mr. Stanley Washington. And I think that it is surprising 
to me that Mr. Griffin, who is on a second carriage tier for 
Comcast, would suggest--and I assume you are suggesting--that 
you would not rather be on a widely-distributed tier that you 
own.
    Mr. Griffin. I am on 100 percent of Video On Demand----
    Mr. Stanley Washington. But you are not on the most widely-
distributed tier that they offer. You are saying that----
    Mr. Griffin. I am on the most widely-distributed Video On 
Demand tier that there is.
    Mr. Stanley Washington. No, but video demand is not the 
most widely-distributed tier within Comcast.
    Mr. Liggins. But that is the business he is in.
    Mr. Griffin. Let me make a comment.
    Mr. Stanley Washington. Oh, no, no, I'm not--I'm not--let 
me just----
    Mr. Griffin. Let me just make one main point. I realize, 
you know, based on my experience, what it takes to be 
successful in some businesses, and I realize I didn't have a 
hip pocket with $150 million to launch a linear channel. That 
is what it takes. Your efforts, over the years, advertisers--
that is what it takes to build that type of company. For the 
type of company that we want to build, we come out ahead. But 
we are cash and carry. We do a share. We want the money, 
upfront. So when we got on Comcast, we had the opportunity to 
go out, sell, pre-sell advertisers, buy programming at a 
certain cost, and we were profitable from day one.
    That is the reason why we are on Video On Demand. We think 
it is an opportunity to talk directly to consumers, profitably. 
It sounded like a good proposition, and we have been doing it 
for 5 years. That is the reason why we are on that tier. We are 
100 percent distributed on Video On Demand. We have never been 
dropped from a home. We have been expanded to other cable 
operators through the deal. That is just a fact.
    Mr. Stanley Washington. And I think that is a excellent 
fact. Our point is that there are many, first of all, there are 
many African American entrepreneurs, who today run 100 percent 
owned media businesses. I think Tyler Perry would take 
exception, to note that there is a belief that there is an 
impossibility to do that.
    Byron Allen, who owns Entertainment Studios, has six 
channels up on the Verizon network right now, for over a year.
    The thought that African Americans, like everyone else, 
can't finance on their own, and to suggest that we should be 
relegated to only having to finance through venture capital is 
counterproductive to the growth of our community, and it is 
insulting to----
    Ms. Madison. I am glad you brought up, Byron Allen because 
I would like to say that when I was general manager at KNBC in 
Los Angeles, and he didn't get distribution anywhere in this 
market, I broadcast two of his programs on a barter deal. That 
was NBC. That was not me personally. That was NBC. So we have, 
in fact, assisted independent programmers to get--and by the 
way, in order for him to sell his product, he had to be able to 
demonstrate that he had support in a certain percentage of the 
U.S. population. And we got him there.
    Mr. Stanley Washington. I think it is wonderful that 
Comcast and NBCU today, on the day of this hearing, have 
announced they are going to give two channels--I'm sorry--three 
channels, over the next 3 years, to African Americans. And they 
are going to do that to a substantial group of minority 
investors.
    The challenge with that is it is not enough. It is crumbs, 
and they know it is crumbs. Alex is absolutely correct. And by 
the way, not just 25 channels for African Americans. Twenty-
five channels for Hispanics, 25 channels for Asians. Comcast 
today has 252, 500 channels throughout their platform in 
various marketplaces. It is dumbfounding to me, that we are 
sitting here, and we think it is acceptable that Comcast is 
willing to have a conversation about diversity, and the one, 
most meaningful conversation in diversity is ownership, and 
they think that three channels for the entire minority 
segment--and by the way, that includes so many derivatives of 
populations, that it is hard for me to count--that that is 
acceptable to our community. It is not. [Applause.]
    Ms. Madison. What it is, Stan, and again, I will sit here 
and tell you that this is an industry-wide problem. But what I 
also say to you is no one else has made this kind of commitment 
in the past or present. So it is a start and we stated that it 
is a base, not a ceiling.
    Mr. Stanley Washington. Is a low base.
    Ms. Madison. So what I would just ask you to consider is, 
is there not a way to begin conversations with Comcast and NBC 
Universal, in order to use this to grow whatever the commitment 
is, if possible? But if what is happening is, before we even 
get out the door, you are pooh-poohing it, saying that it is in 
effect worthless, then what we are saying is that there is a 
business community out there, and there is an audience out 
there, that we recognize and understand is looking to see 
itself not only in business but on the air.
    And based upon, without question, a lot of conversations 
that have arisen as a result of this acquisition, we came 
together and said these are the things that we want to put on 
the table.
    Mr. Gohmert. Thank you. This has been tremendously 
interesting.
    Mr. Conyers. Could I identify myself. I am the Chairman of 
this Committee and I am running this Committee. Now that we 
have got that established, I would like you all to know that 
Judge Gohmert is not from New York. We want to clear that up 
while we are at it.
    And the third thing is it should be made clear that Judge 
Gohmert has asked all the questions and elicited all the 
answers, so that none of us have anything else to do.
    I want to----
    Mr. Gohmert. Well, actually, you know, I usually spend most 
of my time talking myself. But this is an area I don't know 
that much about. So it has been immensely interesting to hear 
the different responses. I appreciate your patience.
    Mr. Conyers. Thank you. I want to turn, now, to our 
marvelous host, Maxine Waters. Give her a round of applause, 
please. [Applause.]
    Ms. Waters. Thank you, Mr. Chairman. Before I get started, 
let me thank Mr. Gohmert for being here. I would also like to 
thank you for the way that you have come with an open mind, 
raising relevant questions, and not assuming anything but 
trying to get answers. And why do I do this?
    Mr. Gohmert is from the opposite side of the aisle and we 
find ourselves in quite different positions. Philosophically, 
we often come from different places. Mr. Gohmert does not 
always, most of the time doesn't even agree with the Chairman. 
He is very articulate. He is extremely bright, well-read, with 
a lot of experience, and for him to come here, in this manner 
today, really does speak to the need to understand this merger 
and what it is all about. Thank you. Give him a big round of 
applause. [Applause.]
    And I would certainly like to thank the Chairman. You know, 
John Conyers is an international icon. He talked about how long 
we have known each other. But this is a man whose life has been 
dedicated to civil rights and social justice.
    This is a man who has put himself on the line for all of 
the major issues relative to not only this kind of merger, and 
dealing with FCC, but he is constantly dealing with issues in 
the Justice Department. He is constantly dealing with issues 
about intellectual property. He is constantly dealing with the 
tough issues of our time, and he talks about applauding me.
    This man should have a standing ovation for the work that 
he has done over the years, and I am going to stand. 
[Applause.]
    Mr. Conyers. The check is in the mail.
    Ms. Waters. Now I want you to know that what we are doing 
today is not normally how we do these hearings in Washington, 
D.C., but because the Chairman is in charge, he gets to do what 
he thinks needs to be done.
    The kind of interaction that you just heard, the back and 
forth conversations, you don't get this in Washington, D.C. I 
am so pleased about this. I was enjoying, so much, the 
exchange, that I wanted it to go on even longer but I guess we 
can't be here all day. But thank you, Mr. Chairman, for your 
generosity.
    Let me start with a little bit of background. Let me just 
say to Ms. Madison and others in the room, you are in a complex 
in what is viewed as South Los Angeles. This is a complex that 
I know an awful lot about because I served in the California 
state legislature with what is known as Subcommittee 4. There 
have been attempts to dismantle this complex. They wanted to 
turn the famous rose garden into a parking lot. They wanted to 
get rid of all of the minority security guards when the 
Olympics was here in Los Angeles, and they wanted to choke this 
existence by denying it the resources and the funds that were 
needed.
    Because I was Chair of Sub 4, this was in my jurisdiction, 
I didn't let any of that happen. We fought them---- [Applause.]
    And under my direction, we started the reorganizing and the 
revamping of this entire complex. It is such an important 
complex, in the middle of this community, where our school 
children come, where we have the opportunity to have open space 
and events, and all of that. So we had to fight very hard in 
order to maintain this important complex.
    And I am just delighted that you are here today. Why do I 
give you that background? I give you that background because 
some of us are in the constant struggle for justice and 
equality in everything that we do. Most people don't have a 
clue about what it is we do constantly and what we have done in 
our careers.
    Even today, for this complex, we make sure that Mr. Jeffrey 
Rudolph, when he comes to Washington, D.C., who's run this 
complex for many years, gets access to the earmarks that we 
have in order to keep the expansion going and the development.
    Now having said that, just as one example, we are doing 
this in many ways, with many issues all over this country. 
Serving on the Financial Services Committee and the Judiciary 
Committee, I am oftentimes in touch with and contacted by 
various entities in this country, where I hear about all of the 
problems.
    Ebony magazine is in trouble. We may lose it. And we are 
contacted. What can you help us do to save Ebony magazine? 
Inner City Broadcasting almost got shut down. GE and Goldman 
Sachs were calling in the loans.
    I can't tell you all what all happened to save it, because 
again, they will want to investigate me.
    But we saved Inner City Broadcasting when GE and Goldman 
Sachs wanted to call in those loans, and it has worked out.
    But let me tell you, all of NABOB, our minority radio 
stations, all of NNPA, our Black newspapers, our minority 
banks, our automobile dealers--we have lost 50 percent of them, 
just in the past few years. Our minority banks cannot get 
capital investment in order to basically stay in compliance 
with the requirements to be able to operate.
    I got a call, just a few weeks ago, that they were calling 
in the loan on Dr. J's golf course down in the Atlanta area. 
And it goes on and on and on. And while I am telling you about 
much of this which is basically African American, the same 
thing is happening with Latinos.
    As a matter of fact, many of the Latino organizations had 
not reached the level of participation of African American 
organizations, and yet their opportunities are being denied, 
and it is systemic exclusion.
    You understand what I'm saying? Systemic exclusion. When I 
first got involved in this Comcast issue, it was because some 
organization said we are trying to get the FCC to extend the 
comment period, and they said no, they won't listen to us. And 
so I had to develop a piece of legislation that I filed, 
immediately, got John Conyers and everybody, 46 other people to 
join with me, and send it over to the FCC. And of course when 
you file it, it is a piece of formal legislation and you have a 
significant number of members who will agree with you, they 
stop and they listen, and they opened up the comment period for 
another 45 days, and that gives us an opportunity. [Applause.]
    And we thought, well, you know, that is just part of it. We 
need some more hearings. And so now, we are at the point where 
not only are they talking about hearings, and John, we had 
better take a look at what shape and form those hearings will 
take. But the Chairman of this Committee is saying, in addition 
to that, we are going to continue these hearings, and we will 
perhaps have to go into New York and we have to go--maybe we 
will go right into Pennsylvania, the backyard of Comcast, and 
do some of these hearings.
    But we are going to continue to go. So I appreciate all of 
those who are here today. And let me just say, to some of you 
who are here today, and you are representing Comcast or NBC, 
and that may be your job, or you may have gotten some advantage 
from it--let me tell you, you are going to do better because we 
are doing what we are doing. Do you understand? [Applause.]
    I have understood, all of my career, that oftentimes, when 
people were taking the opposite position from me, because of 
what I was doing, I was creating their opportunity to get more 
respect in the industries that they were defending. Okay? 
[Applause.]
    So do what you have to do, but know and understand, because 
of what we are doing, NBC and Comcast are talking about what 
they now would like to do. Would they be doing this, if we 
weren't doing this? What we are doing? I don't think so. We 
didn't hear from them prior to the expansion of the comment 
period, that they were thinking about opening up opportunities, 
that they had a plan, and they asked, one of them asked a 
question, Why are you just doing this to us? Why don't you look 
at some of these other media giants? You are before us, asking 
for a merger now. You give us an opportunity to raise these 
questions. And that is why.
    Because you want the FCC and the Department of Justice to 
rule in your favor, and so you give us the opportunity to raise 
a lot of questions about who you are, and what you do.
    Now having said that, because the Chairman is so generous 
with the time, I want to take your attention to a recent study 
by Brandeis University. I kind of alluded to
    some of those organizations and businesses that are 
contacting us about their problems.
    What is the Brandeis study all about? Let me tell you what 
the headline reads.
    Study shows Blacks will never gain wealth parity with 
Whites under the current system. The other headline says--I 
will find it here in a moment.
    A $95,000 question: Why are Whites five times richer than 
Blacks in the United States?
    The conclusion is basically this. The gap between Black and 
White household wealth quadrupled from 1984 to 2007, totally 
discrediting the conventional wisdom that the U.S. is slowly 
and fitfully moving toward racial equality, or some rough 
economic parity between the races.
    Like most American myths, it is a direct opposite of the 
truth. When measured, over decades, Blacks are being propelled 
economically downward relative to Whites, at quickening speed, 
according to a new study by Brandeis University. The gap 
between Black and White households ballooned during the 23 year 
study period, as White families went from a median of about 
22,000 in wealth to 100,000, a gain of 78,000 in the same 
period.
    Black house wealth inched up from a base of 2000 per family 
to only five thousand dollars. The sweat and toil of an entire 
generation had netted Black families only $3,000 additional 
dollars, while White families emerge from the period with a net 
worth of 100 grand, that can be used to send a couple of kids 
to college, make investments, help out other family members, or 
continue to the larger White community.
    The typical Black family has no such options. The Brandeis 
study conducted by the university's Institute on Assets and 
Social Policy shows that upper-income Blacks fell even further 
behind their White peers than lower-income Blacks.
    During the survey period, higher-income Blacks saw their 
wealth drop from 25,000 to just 18,000, while their White 
counterparts' wealth soared to $240,000.
    And what is happening? Whites are both collectively 
privileged and capable of bestowing an endless system of 
privileges on each other, while Blacks are deliberately 
positioned outside of the stream, and are preyed upon, as a 
group, by powerful financial sources that profit from the 
wealth differential.
    I will not go any further with that, because that says it 
all. That talks about why we are here today. That talks about 
the fact that we have a potential merger, a huge merger, 
perhaps the biggest media merger in the history of this 
country, with the potential to deal with this economic 
exclusion that we all can agree to.
    There is no way that anybody can sit here and think it is 
all right for there to be one African American-owned network, 
in essence, by Comcast. [Applause.]
    So when I was contacted after I got involved in this, I got 
a call from somebody at Comcast, and they said, What do you 
want? I certainly didn't know enough about the industry to 
start to talk about what the response should be. But I started 
to think about it, and I said, well, one of the things we have 
discovered is that the programming is such that Blacks are 
really excluded from having the kinds of shows and programming 
that Ms. de Passe alluded to or talked about.
    So I started to talk, well, why don't you do this. I know 
all of these directors and producers, and African American and 
Latino. Why don't you set up a situation where at least they 
can come and present their treatments, and you have credible 
people inside the industry who would listen, and say, well, 
here's some good stuff. And I wanted to do that because NBC, in 
the hearing, had said we just can't find any good product. We 
can't find any good programming.
    We had Jeff Zucker in front of our Committee. I said, well, 
let me help you find some good programming.
    But the fact of the matter is this. Not only do we have the 
systematic exclusion, and now we have an opportunity to do 
something about it. We have to make this work, or the Brandeis 
study will continue to be worse.
    So when they called me and asked me what I wanted, I 
started to talk about doing that kind of thing, and the 
representative said no, I am talking about what do you want.
    And I want you to know that it is easy for Members of 
Congress to have those kind of conversations about What do you 
want? But is just so happens that John Conyers and I, and 
Gohmert, and perhaps everybody on this panel, have lived long 
enough to understand--it is not about taking care of me or us. 
It is about taking care, of being fair to everybody. It is 
about opening up opportunities. Look. I have some friends on 
this panel. Cathy Hughes is one of my dearest friends in life.
    But this is not about Cathy. She is rich. She is going to 
be all right. This is not about Suzanne. Suzanne is a talented 
woman, and even if she gets turned down, she is so brilliant, 
until finally, you know, she is going to have to work hard, 
perhaps at it, but they are going to have to let her in. And on 
and on and on. This is about generations now, and generations 
to come. This is about a Brandeis study, and if we are so 
selfish to be concerned about ourselves, we aren't worth our 
soul. [Applause.]
    And let me just say this. Again, we have worked long enough 
at this, we have enough self-confidence to look Comcast in the 
eye, NBC in the eye, and say Not this time. Not this time.
    And this goes for all of the institutions of our society 
that are responsible for this kind of exclusion. Much of this 
can be solved through public policy. Much of what we have to do 
means utilizing our power and our authority to break up this 
exclusion. I respect all of those who represent the companies. 
I respect those who have the designations of diversity.
    I don't know what you think it means. I don't understand 
how, quite, you see your positions. If you can't tell me how 
many dollars are being spent with minorities in contracting, 
and every aspect of the business, if you can't tell me how many 
major executives making crucial decisions you have, then I 
don't know what you are talking about.
    If you are telling me how many janitors you are hiring, how 
many clerks you are hiring, that is not good enough. We know 
that we can always get some numbers at that lower level.
    So having said that, let's just understand each other. This 
is about ownership. This is about programming. This is about 
executive management. This is about advertising. [Applause.]
    And again, let me reiterate, it is not about donations to 
the NAACP, the Urban League. Who else is, who else is, who 
else? It is good. Keep on donating. They need the money. But 
that does not do what we need to have done in opening up these 
opportunities where there is systemic exclusion, which keeps 
our communities and our people poor, and keep them from being 
able to gather the kind of wealth that they should be able to 
accumulate in America.
    Having said that, one or two questions, cause I have used 
my time, and more than my time, to give you my take on all of 
this.
    NBC, how many of the executive producers for your 2010 fall 
line-up are minorities?
    Ms. Madison. Congresswoman Waters, we have, in the 2010 
line-up, for scripted shows, five out of 18 shows, Law & Order 
LA, Law & Order SVU, Love Bites, The Office, and Outlaw, have 
seven diverse co-executive producers.
    Ms. Waters. How many of the executive producers for your 
2010 fall line-up are minorities? I want to ask you again so we 
will be on the same wavelength about what I am asking.
    Ms. Madison. There are seven.
    Ms. Waters. You have seven executive producers. Is that 
what you are telling me?
    Ms. Madison. These are diverse co-executive producers.
    Ms. Waters. No. Well, okay. Explain it again.
    Ms. Madison. Okay. Five of the 18 shows, and the leadership 
roles in the television, in these television series are 
executive producers, co-executive producers. Of the 18 shows we 
have, five of them, Law & Order LA, Law & Order SVU, Love 
Bites, The Office, and Outlaw, have, among them, seven diverse 
co-executive producers. So five of 18 shows has seven co's. And 
then on our reality shows----
    Ms. Waters. Yes.
    Ms. Madison. That's scripted. On our reality shows--I'm 
sorry. On our cable shows, there are four diverse executive 
producers and co-executive producers on USA and SciFi.
    Ms. Waters. All right. Let's see if we are on the same 
wavelength here. The Event. You have two minorities in 
supporting roles, no executive producers. Is that right?
    Ms. Madison. The Event, we have Blair Underwood as the 
president of----
    Ms. Waters. As an executive producer?
    Ms. Madison. No.
    Ms. Waters. Okay.
    Ms. Madison. I am sorry.
    Ms. Waters. If you would, please, if you call a name, I 
know Blair Underwood is in The Event.
    Ms. Madison. He is a lead on The Event.
    Ms. Waters. Okay.
    Ms. Madison. He plays the President of the United States.
    Ms. Waters. Okay. Do you have an executive producer on The 
Event?
    Ms. Madison. We do not have an executive--but we are still 
staffing the shows. We do not----
    Ms. Waters. So you are looking for an African American or 
Latino executive producer?
    Ms. Madison. We are still---- [Laughter.]
    Ms. Waters. Are there any African American executive 
producers types in the audience? Are there any Latino executive 
producers in the audience? Do you know of any African American 
and Latino or Asian executive producers?
    Ms. Madison. Congresswoman, we know of some, and the ones 
who are on the shows, we----
    Ms. Waters. No, no, no. No, no, no. No, no, no.
    Ms. Madison. We hired them on those shows.
    Ms. Waters. But you don't have them on this one. I want to 
know whether or not you can get the word out and help them.
    Audience Member. [Speaking from un-miked location.]
    Ms. Waters. I can't hear. Stand up.
    Ms. Madison. He's an executive vice president at NBC.
    Ms. Waters. Okay.
    Audience Member. We do have Jim Wong, Jay Wong. He's a very 
experienced--I have to admit, I don't know, exactly, his 
titles.
    Ms. Waters. Okay.
    Audience Member. A senior role.
    Ms. Waters. You all get the word out that they are looking.
    Audience Member. [Speaking from un-miked location.]
    Ms. Waters. Yes. Now I am told, because my staff really had 
to get involved in a lot of research, they say that co-
executive producers are not show-runners. What does that mean, 
Suzanne?
    Ms. de Passe. Well, a show-runner is the person who is 
actually most senior on the production and is chartered with 
the responsibility of delivering the show every week, you know, 
with their team. But they are the most senior of all of the 
producers, and just by way of information, very often, the co-
executive producer, producer, supervising producer, there are 
lots of designated titles on a series, scripted show, that are 
accorded to writers, who also perform in some level of 
production. But it is like a bonus credit for writers to gain, 
because they are in training to become show-runners.
    And so the truth is that you start as a story editor, you 
start in the writer's room, and you work your way up and you 
work your way up, and it is a very difficult level to achieve, 
to become a show-runner, and the notion that the co-executive 
producer role is as senior as the show-runner is just not true.
    Ms. Waters. Okay. All right.
    Ms. Madison. The show-runner is largely responsible for the 
budget. The show-runner is an executive producer but not all 
executive producers are show-runners, Congresswoman.
    Ms. de Passe. Correct.
    Ms. Waters. Okay. You have another show, Chase, where you 
have one minority in a supporting role and no executive 
producers.
    Audience Member. We have two. Sorry. We have two minorities 
that play such a role.
    Ms. Waters. Okay. So you have two. No executive producers; 
is that right?
    Ms. Madison. There is no executive producer but----
    Ms. Waters. Okay. Then you have Undercovers. You have two 
minorities in a lead role, and no executive producers; is that 
right?
    Ms. Madison. In Undercovers, which again is still being 
staffed----
    Ms. Waters. But the fact of----
    Ms. Madison. Boris Kodjoe and Gugu Mbatha-Raw are the stars 
of the show. Two Black people are the stars, and a co-star, who 
portrays her sister, is also Black.
    Ms. Waters. And Undercovers--I want to make sure what I am 
saying is correct. There are two minorities in lead roles and 
no executive producers. Is that a correct statement?
    Ms. Madison. That is correct, presently.
    Ms. Waters. Okay. You have Outsource where you have three 
minorities in supporting roles and no executive producers; is 
that correct?
    Ms. Madison. I believe we have five minorities in the 
ensemble, in the cast, and I don't believe there are any 
executive producers. Oh. I'm sorry.
    Audience Member. [Speaking from un-miked location.]
    Ms. Waters. I am sorry. I can't hear you.
    Audience Member. [Speaking from un-miked location.]
    Ms. Madison. That is Grace Wu. She is the head of Casting.
    Ms. Waters. Suzanne, they have three minorities in 
supporting roles, ensemble cast. Are we talking about the same 
thing?
    Ms. de Passe. Yes. I mean, listen, as hard as it is to get 
a job today doing anything, this is not a bad thing for them to 
be having diverse cast members. This is good; you know?
    Ms. Waters. Okay.
    Ms. de Passe. This is very good.
    Ms. Waters. Okay.
    Ms. de Passe. But I think the thing that we are trying to 
figure out is, when we say minority, for purposes of where I 
think you are going, it would be great to know how diverse. In 
other words----
    Ms. Madison. They are racial minorities. We are not 
counting women.
    Ms. de Passe. Pardon me?
    Ms. Madison. They are racial minorities. We are not 
counting women.
    Ms. Waters. But what she is asking is, would you tell us 
what those racial minorities are.
    Audience Member. Mostly South Asian.
    Ms. Waters. I can't hear you.
    Audience Member. They are South Asian actors.
    Ms. Waters. South Asian. Okay.
    Audience Member. [Speaking from un-miked location.]
    Ms. Waters. That is an outsource. All South Asian?
    Audience Member. Yes.
    Ms. Waters. Okay. And executive producers, none. Is that 
right?
    Audience Member. That is correct.
    Ms. Waters. Okay. That is correct. Let's move on. Love 
Bites. No minority leads, one Asian American in a supporting 
role and no executive producers. Is that right?
    Ms. Madison. That's----
    Audience Member. It's--I'm sorry. I'm sorry.
    Ms. Waters. Who are you? [Laughter.]
    You keep jumping up.
    Ms. Madison. He is an executive vice president.
    Mr. Sanders. My name is Bernie Sanders. I am the executive 
vice president of Current Programming. I recently was in 
Development at NBC as a senior role.
    Ms. Waters. Okay.
    Mr. Sanders. Love Bites, just for clarification, is a show 
much like Love American Style. So there is a guest cast coming 
in and out. The more we talk about the guest cast that was 
invited into that pilot episode, it is highly diverse. But in 
terms of series regulars, you are correct. We only have two 
series regular roles and both--neither of those roles are 
diverse.
    Ms. Waters. And you have no executive producer?
    Mr. Sanders. Correct.
    Ms. Waters. Okay. Let's move on. School Pride. Two 
minorities in ensemble supporting roles, no executive 
producers; is that correct? Come on. You jumped up on 
everything else. [Laughter.]
    Is that right?
    Mr. Sanders. I cover scripted shows so I----
    Ms. Waters. I just thought you knew everything. Okay. All 
right. Okay. Paula, is that correct?
    Ms. Madison. That is a reality show, and it is a make-over 
of inner city schools. There are two co-hosts, and coming in 
and out of the co-host role, I believe there are, there is 
diversity. It was designed that way, so that there is 
diversity, depending upon which school we are looking at and 
when.
    Ms. Waters. You have two minorities in ensemble supporting 
roles and no executive producers. Is that a correct statement?
    Ms. Madison. That could be in the pilot----
    Ms. Waters. Okay. All right.
    Ms. Madison [continuing]. But not necessarily in the 
series.
    Ms. Waters. Outlaw. One minority lead and no executive 
producers. Is that right? Jimmy Smits and no executive 
producers; right?
    Ms. Madison. Outlaw has a co-executive producer who is 
diverse.
    Audience Member. And then we also have a co-lead, David 
Ramsey, who is African American, who's Jimmy Smits' partner on 
the show.
    Ms. Madison. Jimmy Smits is the lead.
    T3
    Ms. Waters. Is that considered a lead role?
    Ms. Madison. Yes. He plays a Supreme Court justice, just 
retired.
    Ms. Waters. So you have one Latino and one Black, and no 
executive producer. But you have something called co-executive 
producer; is that correct?
    Ms. Madison. Yes.
    Ms. Waters. How many people are in the show? Describe to me 
what would be the total numbers----
    Audience Member. Of the series?
    Ms. Waters. Yes.
    Audience Member. There are five series regulars on the 
show.
    Ms. Waters. Five regulars?
    Audience Member. Five regulars, and two of them are 
diverse.
    Ms. Waters. And?
    Audience Member. Pardon me?
    Ms. Waters. How many, totally, in all of the shows? How 
many people?
    Audience Member [continuing]. Cast members?
    Ms. Waters. I can't hear you.
    Audience Member. I'm sorry. I guess I'm not clear what the 
question was.
    Ms. Waters. Okay, and I'm not clear either, except to say 
that you are casting five consistent roles but you are also 
casting, what do they call them? walk-ons and others who 
participate in this series. Is that right? How many, totally, 
including the ones who may be doing one show, two show, walk-
on, one time, whatever. How many altogether?
    Audience Member. It varies. I can say for a show like Love 
Bites, which we will be casting, mostly guest cast every week, 
there'll probably be up to six to eight guest leads per 
episode, once we start production on that.
    For a show like Outlaw, in the pilot there were probably--
well, there were----
    Ms. Madison. Five.
    Audience Member. There were actually two guest leads, 
actually, both of them African American actors. It took place 
in Philadelphia. So----
    Ms. Waters. Okay. I think I get the picture.
    The Cape. Two minorities in supporting roles; no executive 
producers.
    Ms. Madison. That sounds correct.
    Ms. Waters. Okay. Friends With Benefits. One person of 
color; no executive producers. Is that correct?
    Audience Member. We are, just to speak on the casting 
front, we are in process of--there are five series regulars. 
One is diverse. We'll be casting two of the actors and one of 
them will absolutely be diverse. So the number of diverse 
actors will be increased in the series.
    Ms. Waters. Okay. But for right now, what we know about it 
is one person of color and no executive producers. Is that 
right?
    Ms. Madison. Yes.
    Ms. Waters. All right. And Perfect Couples. Of course no 
couples of color.
    Audience Member. There is one.
    Ms. Waters. One. What ethnic group?
    Audience Member. She's Asian American.
    Ms. Waters. African American. Okay.
    Audience Member. Asian American.
    Ms. Waters. Asian American. Okay. All right. Harry's Law. 
One minority in a supporting role; is that correct?
    Audience Member. In the pilot, yes, but we are recasting 
the show, so we'll have more of an update----
    Ms. Waters. They are recasting you all.
    The Paul Reiser Show. Three minorities in supporting roles. 
I just wanted to go through that, so that we could just get 
kind of an understanding of what is happening.
    When Ms. de Passe alluded to the Bill Cosby Show, Moesha, 
Girlfriends-we don't have any of that anymore, do we?
    Mr. Conyers. No.
    Ms. Waters. We don't have any of that; right?
    Mr. Conyers. No.
    Audience Member. No.
    Audience Member. No.
    Audience Member. No.
    Ms. Waters. I take personal offense to that. I really liked 
Girlfriends. [Applause.]
    Okay. And let me just ask a bottom-line question. Are there 
any Black or Latino show-runners in NBC primetime? Where is 
that gentleman that knows so much?
    Audience Member. The answer to your question is no.
    Ms. Waters. That is all you have to say? You don't have 
any. Thank you. All right. Thank you very much. Thank you very 
much. I had lots more questions for Comcast, but maybe in the 
discussion that you and others will lead us in, some of those 
will come up. I really appreciate you for your generosity and 
time. Okay.
    Mr. Conyers. Give Maxine Waters a round of applause, 
please. [Applause.]
    I am now pleased to introduce to you, but many of you know 
her already because she is from the LA area as congresswoman, 
the first Chinese American woman in Congress in history. Judy 
Chu. [Applause.]
    Ms. Chu. Thank you for that gracious introduction. I wanted 
to follow up on the responses. This is a very large document, a 
very detailed document called Responses of Comcast Corporation 
and NBC Universal to Questions Submitted by Several Members of 
the United States House of Representatives.
    And first, I wanted to address the issue of diversity and 
ethnic cable packages, and programming. You talk about the fact 
that Comcast supports African American, Hispanic and API, Asian 
Pacific Island programming. And I have a concern about whether 
this diverse programming will primarily be in premium packages, 
premium packages that cost more, and whether that is 
exclusionary of many people in our community.
    Like, for instance, you refer to a Hispanic cable package 
in your response. How much more does that cost?
    Ms. Madison. Congresswoman Chu, the question specifically 
about Comcast cable packaging, the price packaging, I would 
have to take back to Comcast for answers. I was primarily here 
to talk about the new NBC Universal.
    Ms. Chu. So nobody is here from Comcast to talk about any 
of these very important diverse----
    Ms. Madison. There are people here from Comcast. They 
weren't prepared to testify, however.
    Ms. Chu. Well----
    Ms. Waters. I'm sorry.
    Ms. Madison. We can get those answers for you.
    Ms. Waters. If the gentlewoman would yield one more time. 
You did ask if there was anybody here responding to a request 
from this Committee, from Comcast, to testify. I want the 
record to be clear. Is that what you asked?
    Ms. Chu. Yes.
    Ms. Waters. And what response did you get?
    Ms. Chu. Nobody is here to testify on this, even though 
there is a very, very thick document that is supposedly the 
response to us on these issues that we raise pertaining to 
diversity and this whole merger issue.
    Ms. Madison. So if I could answer it this way. When your 
Committee had the hearings in February, in Washington, the 
question specifically around Comcast, Brian Roberts, we 
thought, was the witness, the appropriate witness at the time.
    Then there were a number of questions that were put to 
Comcast and NBC Universal by the FCC, which were just 
submitted, the answers to which were just submitted, in 
writing.
    To the extent that there are more questions about Comcast 
pricing, I would be more than happy to take those questions 
back to Mr. Roberts, but he did address those in the Committee 
hearing in February.
    Ms. Chu. I don't think they were addressed, because the 
responses here raise more questions.
    Ms. Madison. Then, for the record, I will be happy to take 
your questions back and get responses from Comcast.
    Ms. Waters. May I ask the Chairman. Mr. Chairman, you said 
we would have more questions. Ms. Chu, if you don't mind. Is it 
possible that you have the power to subpoena responses from 
anyone that is unresponsive? Do you have that power?
    Mr. Conyers. Who? Me?
    Ms. Waters. Yes. Is it possible that, at some point in 
time, you could make a decision----
    Mr. Conyers. Well, we would never consider anything like 
that; no.
    Mr. Brown. Mr. Chairman, if I may.
    Mr. Conyers. Yes, sir. Who are you?
    Mr. Brown. My name is Payne Brown. I am vice president of 
Comcast. While we did not have somebody on the panel, we're 
certainly here, not hiding. With regard the Congresswoman's 
specific question, I am happy to get back to you the pricing of 
those packages.
    Ms. Chu. Well, then I am going to make a statement, and 
basically say what my concern is. Basically, in your response 
to us, you refer to these cable packages, but we know that 
certain packages that you have actually cost different 
community members more.
    For instance, the Asian American On Demand package, like 
their Bollywood package, costs 12.99 a month, and the Filipino 
package costs 7.99 a month. So I have great concern that these 
packages, what you call diverse programming, are actually going 
to cost the community more. And there is a situation here where 
Comcast operated a network called AZN, which offered a diverse 
array of programming for Asian communities.
    Then Comcast stated that AZN was unsustainable and that 
there wasn't sufficient demand. But considering the fact that 
there are 5 million Asian Americans in California, you would 
think that there would be sufficient demand.
    So the question was availability. Was AZN only offered with 
premium cable packages? And we already know that it costs a lot 
to have a premium package, in some areas, $127, and it is 
really a luxury. And so if that is what is going to be the 
definition of diverse programming, that is not acceptable.
    Mr. Brown. If I may. And in response with regards to the 
price point on the packages, I can address specifically AZN. It 
was not a part of the premium package.
    Ms. Chu. Then when you follow through with a plan to 
increase the number of diverse and independent programming, 
will the new programs be part of Comcast non-premium cable 
packages?
    Mr. Brown. The channels which are referenced in in our 
files would be two channels a year for 3 years, six channels. 
It is not contemplated that those will be part of premium 
packages.
    Ms. Chu. Well, then that brings up the adding to, you know, 
this idea of adding two new independently-owned and operated 
channels each year for 3 years. Again, we could have more 
diverse programming coming through them. But is Comcast 
committing to the net addition of two new independently-owned 
channels per year, or are you simply replacing eliminated 
channels?
    Mr. Brown. No, we are not, it was not contemplated, be 
replacing eliminated channels. Those are additional channels, 
added to the ones----
    Ms. Chu. And do you commit to adding the independent 
channels to your most highly-penetrated tiers?
    Mr. Brown. We have not made distribution commitments, other 
than to say to say that there will be different new channels 
but they are not assigned to a specific tier.
    Ms. Chu. Then I will also raise a concern, which is the 
question of whether there would be any blocking, or otherwise 
diminishment of broadband subscribers' access to such 
competitive online content, and whether there might be an 
online pay wall that would be required by Comcast subscriptors 
for access, such as some kind of payment that they would have 
to pay, for those who were watching Hulu, an extra payment for 
accessing this kind of content. That would be 
counterproductive.
    Then Comcast and NBC stated that, in your response to us, 
so maybe both of you, or either of you could answer this, which 
is that you will collectively produce an additional 1000 hours 
per year of local news and information programming.
    But this was not included in a specific commitment. Is this 
going to be a part of a binding commitment?
    Mr. Brown. That was in the FCC filing.
    Ms. Madison. Yes. It was in the FCC filing. Yes.
    Ms. Chu. So it is going to be part of a binding commitment. 
And how will these hours be allocated?
    Ms. Madison. Congresswoman, I think that that is part of 
the process. We see them as local news and information. So 
depending upon the various communities, and what the various 
communities would therefore be looking for, we would produce 
that kind of content that is local.
    Ms. Chu. And will this commitment continue year after year, 
or only during the first post-merger year?
    Ms. Madison. I actually don't know.
    Mr. Brown. We will continue-
    Ms. Madison. The commitment is for 3 years but we will 
continue.
    Ms. Chu. Okay. And then finally, you know, this issue of 
supplier diversity data is extremely important, I think. Is 
Comcast willing to disclose supplier diversity data and partner 
with community groups who will monitor Comcast and the joint 
venture's ongoing commitment to supplier diversity?
    Ms. Madison. Yes. That is part of the relationship, for 
example, the various diversity councils, the conversations that 
have been going on with Alex Nogales. that is one of the points 
of the MOU.
    Mr. Brown. Absolutely. And in the document that we released 
about other diversity commitments, we are creating diversity 
councils, both African American, Asian and Hispanic community, 
and supplier personnel which will be reviewed with those 
councils.
    Ms. Madison. With an eye toward getting assistance from the 
members of the various organizations with whom we would be 
partnering.
    Ms. Chu. Okay. Thank you.
    Mr. Brown. Thank you.
    Ms. Madison. Thank you.
    Ms. Chu. Thank you, Mr. Chairman. I yield back.
    Mr. Conyers. Thank you. Ms. de Passe.
    Ms. de Passe. Yeah. I, for the record, just wanted to 
clarify something about the show-runner situation, because I 
think it should be noted that part of the internship to 
developmental process that as how-runner goes through, or a 
prospective show-runner goes through, is not only something 
that allows them to develop their craft--this is a practice 
sport. What we do is a practice sport. Like a tennis serve. You 
can't get better at it unless you do it.
    And for people to understand that it is not about a job. It 
is about a career. It is about a continuity of jobs. And when 
the sitcom basically went away, and the shows that I was 
talking about went away, many of the people who were developing 
as show-runners, or people, African Americans, in particular, 
who had become show-runners, lost the opportunity to have that 
continuity, and therefore, are now back to looking for jobs.
    And it is also true that, you know, a half-hour situation 
comedy, which we call multi-camera shows, basically went out of 
fashion for a while. They are starting to come back a little 
bit. And so that is a good thing for many of our show-runners 
of color.
    But it is absolutely true that we need to understand that 
whether it is an actor, or a crew member, or a writer, or an 
executive producer, or a developing show-runner, it is about a 
continuity. It is not about a one-time thing. That is not how 
you build anything, and you can never get the credibility to be 
in demand, or to be hired, because being a show-runner is a 
very, very, very important job, a very tough job, and networks 
care more about who it is than what it is.
    And they want to know that that person knows who to deliver 
a show, run a show, deal with a budget, as Paula said, and it 
is vital, absolutely vital, that when we talk about this, we 
look at the opportunity for continuity, not just a job.
    Mr. Conyers. Steve Cohen comes out of a background that 
might surprise someone, because he is connected to Harry 
Belafonte and his family. So he is not without some knowledge 
of the rudiments of the industry and we yield to him for his 
questions or comments.
    Mr. Cohen. I want to thank you, Mr. Chairman, for giving me 
the opportunity to speak after you have had a standing ovation. 
Congressman Waters has had an Oscar-winning type questioning 
session and a standing ovation. Congressman Gohmert fell into 
an unbelievable colloquy they never heard before in Washington. 
[Laughter.]
    Ms. Chu has left. You know, I think this hearing has been 
successful, and what it is about, it is like an Impressionist 
painting, and the painting has been presented, and the colors 
are out there, and it has achieved its purpose. So I don't know 
that there is that much more that we could add.
    But one thing I thought, I understand the need for the 
hearing and the need for more opportunities for minorities. The 
report from the Brandeis university is just indicative of 
something that the Chairman has worked on for so many years, 
and Congressman Waters has too, and it has been a part of my 
work, and that is trying to see that we do have fairness and 
justice and equity in our country, which we have not had, even 
though the Declaration of Independence and the Constitution 
claimed we did.
    We are getting to be a more perfect union. We still suffer 
from vestiges of slavery and Jim Crow, and we passed a 
resolution in the House, the 110th Congress, to say we rectify 
those lingering consequences, and we need to do that. And that 
is the primary reason why I think the Brandeis study is there. 
And the separation in income.
    The separation of income of all peoples, Black and White, 
has become greater and greater and greater over the last 
decade, and a lot of it is the Bush tax cuts.
    But there are other reasons for it as well, and 
opportunities that haven't been presented. And this is just a 
part of it, and it's a great opportunity--I don't know who 
mentioned it, maybe it was Mr. Washington--that there are so 
many African American customers of Comcast, and of cable, and 
it is a place where pricing is equal, although you could choose 
different packages, that African Americans do participate in a 
manner that does dictate that there is more responsiveness to 
the African American community at large, than you might have in 
some other areas.
    Because you can buy a Brioni suit, or you can buy another 
suit, but you can only buy one Comcast package, more or less. I 
know you get Basic Comcast, you get Comcast plus do-dads. But 
basically it is quite similar, and there is not that much 
difference, and there is a whole lot of African American 
participation in there. So there is a need, and I think it has 
been shown well.
    One thing I find that is sad, and I understand the need for 
more programming, and more show-runners, and more jobs, and all 
those things--but what is sad is that Congressman Gohmert and I 
were big fans of the Bill Cosby Show, and we watched it, 
because in that time, long ago and far, far away place, there 
were just three stations, and they didn't have names like Hulu 
and Gugu. They were acronyms. They were alphabetical names.
    And so people watched the Bill Cosby Show. If you were 
White, you saw Bill Cosby. But if you are going to end up with 
all these channels, and you are going to have these channels 
Mr. Washington talks about, which is commendable for 
programming and all that, African American channel, it is not 
going to be seen by everybody.
    And we are getting in the country too striated, where all 
we do see what we want to see. We see the Hispanic channel if 
we are Hispanic. Or the Asian channel if we are Asian. Or the 
Africa--but when you had three channels, you all had to kind a 
watch, you know, each other, and it brought our country 
together.
    And I am afraid part of what cable is doing is doing too 
much to keep us separate, and in our own little world, and not 
coming together.
    So I would hope that Ms. Madison would see to it that NBC, 
which still has a large following, even though there are these 
other stations, networks, does do more in diversity, cause that 
does give a picture to America of people that they don't often 
come in contact with.
    A question was asked about Meet The Press and the Sunday 
talk-shows, and I know you have had Congressman Ford, Jr. on 
there, and you had somebody else on recently who you had to 
tell people who he was. I mean, he was a very bright, 
intelligent man, but nobody knew him. You had to give his vitae 
at the show.
    And I mentioned to you Julian Bond, and others have 
mentioned Mfume. There are people of the NAACP who are the 
people who should be out there on Meet The Press, advocating 
the African American perspective, who do it in an honest and 
just way, with a history of doing it, that should be on those 
shows. [Applause.]
    Mr. Liggins. I would like to make a plug, because we, at TV 
One, actually created a show called Washington Watch, about 
five or 6 months ago, hosted by Roland Martin of CNN, for just 
that purpose. It comes on Sundays at 11 a.m. and then it is 
reaired at 5 p.m., and the, you know, kickoff guest was Joe 
Biden, and we run everybody that we can get, who is African 
American or has constituents that are affected, that are 
constituents that are African Americans, or run programs, 
government-oriented programs that affect African Americans. I 
invite you all to watch it.
    But we lose money on it, we put it on the air because it 
was the right thing to do, and it has been on for quite some 
time, and it is done out of the Comcast studios across from 
Capitol Hill, and Roland is a great host, and I think it covers 
the base that Meet The Press doesn't, so----
    Mr. Cohen. And Roland's great, but I think, you know, Meet 
The Press gets into everybody's living room.
    Mr. Liggins. Fair enough.
    Mr. Cohen. And that is why it is important to have that 
perspective, which is missing, and it has been missing. And I 
am not saying that my friend, the Texas Christian, Bob 
Schieffer, does any better on his show.
    Mr. Liggins. Right.
    Mr. Cohen. You know, it is not there. And I want to thank 
you. You said something about some gigantic or great deal. I 
thank you for not thinking about Joe Biden. I was afraid you 
were going to get there. Better use of adjectives.
    Mr. Stanley Washington. Mr. Cohen, can I make a clarifying 
comment, if I could?
    Mr. Cohen. Yes.
    Mr. Stanley Washington. What I'd like to just clarify, in 
my comments earlier, in reference to the condition that we are 
requiring, or requesting, for 25 channels. To your point, what 
we really are advocating isn't 25 BETs or TV Ones. What we are 
saying is African Americans, and Hispanics, and Asians, should 
have the ability to own and operate a multitude of thematic 
type of programming that would exist in the marketplace.
    Mr. Cohen. And you are proper to correct me on that, cause 
you are right, cause you could produce and have African 
American ownership of some stupid reality shows too. I mean, 
that is not something that only Caucasians could do.
    Mr. Stanley Washington. We want the same right. We want the 
same right.
    Mr. Cohen. But you are right. Our Western cowboy shows, or 
whatever. But I really think Mr. Griffin made a good point 
that, you know, Jimmy The Greek talked about other people's 
money, use OPM. I don't know why it takes a 100 percent African 
American-owned company. Better to have 51 percent. Let 49 
percent suckers give you money and you run it. That seems like 
a great deal.
    Mr. Stanley Washington. I think the notion, though, that 
gets missed is, particularly when we talk about cable 
ownership, is that the revenue model is secure enough for an 
owner, if they are being treated freely and they are being 
given competitive subscriber fees to compete. When Ted Turner 
launched his channel, when he launched his network, he was 
selling Ginsu knives over his network.
    The notion that you must have advertising commitment to 
launch is not correct. If you are treated equally on the 
platform, and Comcast, and others, give you what you are worth 
to compete in their marketplace, there is plenty of opportunity 
to sustain yourself in the overall scheme of how you operate.
    And I think that there are. I really do. I think that there 
are. You know, a real estate investor in acquiring Miramax. 
Right. There are plenty of people outside of the industry, as 
well as in, that have the capability, the financing and the 
ownership, at a 100 percent, to come in and operate and run 
these channels, if in a free market environment they are being 
treated and allowed to operate freely.
    Mr. Liggins. Congressman, I just want to add, cause I think 
this is where African Americans, in general, do themselves a 
disservice. The misnomer, that you can have a 100 percent 
ownership of any large company, is just that.
    Mr. Cohen. Right.
    Mr. Liggins. It is not economically possible. It costs us 
$75 million a year to run TV One. Seventy-five. And it is good 
quality programming. If you want to spend $7 million a year, 
you are not going to be proud of what is on the screen. So we 
need to get away from this thing, that if it is not a 100 
percent African American-owned, or 80 percent African American-
owned, that it doesn't qualify as African American-owned, cause 
then you will never come up with any true quality African 
American-owned companies.
    And I mentioned it before. Nobody doubts that Bill Gates 
owns Microsoft, or Rupert Murdoch owns Fox. Or Sumner Redstone 
owns Viacom. So why should that fall back on African Americans 
in terms of their value----
    Ms. Waters. Will the gentleman yield for 1 second, please, 
before you----
    Mr. Cohen. Surely. Yield.
    Ms. Waters. Let me just say that I attempted to talk about 
our role and our responsibility in trying to open up 
opportunities in all sectors of our society, and I want you to 
know, to that end, we are concerned about Wall Street, and 
whether or not Wall Street is investing in these opportunities. 
I heard the discussion about Bill Cosby and Bill called me, and 
I talked to him about the fact that he wanted very much to 
acquire NBC, but Goldman Sachs and the rest of them said no. 
They would not help to finance him, despite the fact he was 
really making NBC at the time.
    So to that end, on the Financial Services Committee, in the 
Wall Street reform legislation that will be in conference 
starting next week, we have some amendments that I put in, that 
would create the Offices of Minority Inclusion in all of our 
financial services offices, including, you know, FDIC, the 
Treasury, SEC, everywhere, so that we can begin to address 
these issues of institutional exclusion, and get our Government 
not only organized to take a look at what is going on but be 
able to do public policy that would help to correct it.
    So we recognize what you are saying, Mr. Washington, but we 
also recognize that equity investment is extremely important to 
the way we do business in this society, and that it is very 
difficult to do it without it. Even though we do have a few 
rich people, they don't usually put their total amount of funds 
at risk in order to advance a business where the whole thing is 
at risk.
    So we are looking at that aspect of it also. Thank you very 
much.
    Mr. Cohen. You are welcome, and I think Mr. Washington 
sought recognition.
    Mr. Frank Washington. The other Mr. Washington.
    Mr. Cohen. Mr. Washington, the elder.
    Mr. Frank Washington. I am not sure I accept that, but I 
will take it any way I can get it.
    Mr. Cohen. Pliny, the Elder, in mind. [Laughter.]
    Mr. Frank Washington. A couple of things I think that 
Congresswoman Waters, and you, Mr. Cohen, spoke to, I think are 
very important to help focus this discussion. The minority tax 
certificate, as I mentioned, was the most effective device for 
inciting minority ownership.
    The reason why it worked, because it was a marketplace 
sensitive approach. My experience with Congress, quite 
honestly, in terms of mergers, was my attempt to buy Viacom's 
cable system 10 years ago, and that little incursion resulted 
not only in my deal being retroactively killed, but also in the 
end of the tax certificate.
    So, you know, one of the things, I think you all sit in a 
very important position, and it is sometimes easy to forget 
that nobody is prescient, nobody's omniscient.
    The marketplace really, I think, is going to be the answer 
to a lot of this stuff. So I mean, whatever solutions, whatever 
decides you look to, and Congressman Waters, I think your focus 
on sources of equity is probably the highest priority here, 
because at the end of the day, all of us entrepreneurs, I mean, 
you know, our ideas are only bounded by the money and the 
capital that we can get to support them.
    But anyway, I think the important thing to remember is the 
marketplace, really, is going to what, is going to what 
determines this.
    This merger, in a way, I think is being prompted, as we 
watch in a landscape where newspapers are being turned upside 
down by the same kind of fears, coming from disruptive 
technologies and services.
    There may be a guy sitting in the back of the room that is 
going to create the next Facebook. I mean, we just don't know. 
I have a service called blackbird.com, which it is a Black-
oriented browser, that basically pulls all the information 
together on to a browser that sits on your computer. You know, 
we have 300,000 subscribers. Who knows, you know, who is going 
to determine this?
    But I would just caution, and pray, that you try to 
recognize that, like the rest of us mortals, you can't know 
what is going to happen. So whatever approach you come up with 
is one that allows and facilitates the marketplace, as opposed 
to trying to apply some sort of rigid approach that, in my 
experience, when that has been done, it causes things, in many 
cases, that really are counterproductive, so----
    Mr. Cohen. The gentleman back here that Congressman Waters 
said knew all the answers. Could you answer a question. I don't 
watch a lot of television, really. I watch sports, and I watch, 
I try to watch Rachel Maddow and Keith Olbermann, but Comcast 
put them on 81 instead of 48, so it is harder to find it. Kind 
of like taking Radio Free Europe out of the Soviet Union. 
[Laughter.]
    What is Friends With Benefits about? [Laughter.]
    Mr. Sanders. It is about what it sounds like.
    Mr. Cohen. I have got to watch that show.
    Thank you. I yield back the balance of my time.
    Ms. Waters. Thank you all very, very much. First, I would 
like to again thank my Chairman, and the Members of the 
Judiciary Committee who showed up today, to be a part of this 
most important discussion.
    Secondly, I would like to thank all of the panelists for 
your contribution. I would like to say for those panelists who 
have ideas about how we could do some corrections in this 
industry, don't wait until we find you, call us, and help us to 
be able to create good public policy, based on your knowledge 
and your experience. That is how we get good public policy.
    If we are left to do it as best we can, we are going to do 
what we know how to do. You may not like what we do. So if you 
want us to do what you think makes a lot of sense, you have got 
to call us and help us out. I want to thank some of the people 
who have been in this struggle for so long, whether we are 
talking about organized labor or we are talking about 
greenlining, or these other panelists who are here today 
representing the intellectual point of view, based on the work 
that they do.
    We really are appreciative for your participation. My 
Chairman not only asked me to thank all of you but to let you 
know that we shall continue in our efforts to learn more about 
this merger and to make sure that we dissect the commitments 
that are being made, and we will also have the opportunity to 
forge what we think are legitimate responses based on the 
information that we are learning.
    So Mr. Chairman, I think with that, I will give you the 
microphone to adjourn this Committee, and once again, we thank 
you all for your participation today.
    This Committee is adjourned.
    [Whereupon, at 12:55 p.m., the Committee was adjourned, 
subject to the call of the Chair.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
